<html>
<title> - THE STRUGGLE FOR CIVIL SOCIETY IN EGYPT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








                THE STRUGGLE FOR CIVIL SOCIETY IN EGYPT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2014

                               __________

                           Serial No. 113-207

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-832PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Charles Michael Johnson, Jr., director, International 
  Security and Counterterrorism Issues, International Affairs & 
  Trade Team, U.S. Government Accountability Office..............     8
Mr. Charles Dunne, director, Middle East and North Africa 
  Programs, Freedom House........................................    32
Mr. Sam LaHood (former Egypt Country director, International 
  Republican Institute)..........................................    41
Mr. Patrick Butler, vice president, Programs, International 
  Center for Journalists.........................................    53
Ms. Lila Jaafar, senior program manager, National Democratic 
  Institute......................................................    58

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Charles Michael Johnson, Jr.: Prepared statement.............    10
Mr. Charles Dunne: Prepared statement............................    35
Mr. Sam LaHood: Prepared statement...............................    43
Mr. Patrick Butler: Prepared statement...........................    56
Ms. Lila Jaafar: Prepared statement..............................    60

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85
Written response from Mr. Charles Michael Johnson, Jr., to 
  question submitted for the record by the Honorable Doug 
  Collins, a Representative in Congress from the State of Georgia    86

 
                THE STRUGGLE FOR CIVIL SOCIETY IN EGYPT

                              ----------                              


                        THURSDAY, JULY 24, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    I know that many of our members are in other committees so 
they will be scooting back and forth during our hearing. So 
please excuse our absence at any time during your testimony and 
don't think it has anything to do with you.
    It might have to do with you but not the others. But after 
recognizing myself and Ranking Member Deutch or Mr. Connolly, 
if Mr. Deutch is not here promptly, for 5 minutes each for our 
opening statements, I will then recognize other members seeking 
recognition for 1 minute.
    We will then hear from our first witnesses and without 
objection the witnesses' prepared statements will be made a 
part of the record and members may have 5 days to insert 
statements and questions for the record subject to the length 
limitation in the rules.
    Following the completion of our first panel, I will then 
introduce our second panel of witnesses and their prepared 
statements will also be made a part of the record. The chair 
now recognizes herself for 5 minutes.
    Egypt has long been considered a key state for U.S. 
national security objectives in the Middle East and North 
Africa and for over 30 years our two nations have shared 
strategic military and political cooperation.
    For its part, Egypt reached a peace agreement with Israel 
in 1979 and since then the United States has provided Egypt 
with billions of dollars in military and economic assistance.
    In return, Egypt keeps the peace with its neighbor and our 
strategic ally, the democratic Jewish state of Israel, and it 
also provides us with access to the Suez Canal that gives us a 
critical route for transit between the Mediterranean and the 
Persian Gulf or the Indian Ocean.
    But today's Egypt isn't the Egypt of '79 or even 2009. When 
the Arab Spring began, few thought Mubarak would fall. Mubarak 
was forced to step down and Egypt was finally able to begin the 
transition toward freedom and democracy.
    But Egypt was a society that never had any experience with 
democracy. There was no foundation for democracy and 
governance, civil society, rule of law. They were just millions 
of Egyptians who knew that they wanted something better and 
they just didn't know how to achieve it.
    Perhaps sensing that the time to open Egyptian society was 
near, the United States Government began to fund democracy and 
governance programs in Egypt a little over a decade ago.
    What started out as a relatively modest program with lofty 
goals and objectives, the Arab Spring of 2011 and the Egyptian 
street's response proved that there was indeed the need and the 
desire for such programs in Egypt.
    That year, the U.S. Government increased our funding for 
democracy and governance from $13 million in Fiscal Year 2010 
to $72 million in Fiscal Year 2011. Due to the ongoing unrest 
that later became the Egyptian Revolution, the Egyptian 
Government began to strongly object to some of the U.S. 
Government's planned democracy and governance programs and the 
Ministry of Justice began targeting or implementing partners in 
Egypt.
    Then in December 2011, Egyptian authorities raided the 
office of 17 local and foreign NGOs including four American 
NGOs who were implementing U.S.-funded programs--Freedom House, 
National Democratic Institute, NDI, the International 
Republican Institute, IRI, and the International Center for 
Journalists, ICFJ.
    Forty-three of the employees of these NGOs were arrested 
and they were charged with operating offices in Egypt without 
being registered and receiving foreign funds without the 
approval of the Egyptian Government.
    Despite the ever-changing fragile state of Egypt's 
transition to democracy, from the time of the arrests until the 
time they were convicted in June of last year, the one constant 
that remained was that these 43 individuals were pawns in a 
politically-motivated dispute between the Egyptian and the U.S. 
Government.
    The NGOs were merely doing their job and operating how they 
believed to be in accordance with Egyptian law yet they were 
arrested, they were tried, they were convicted in a politically 
motivated operation and many people may think that because we 
got the Americans out of the country and back to the United 
States that their struggles are over.
    But that is not remotely the case. This conviction has 
loomed over the heads like the sword of Damocles, as they have 
to live their lives in constant worry of the repercussions.
    That is why in June 2013, my colleague, Gerry Connolly, and 
I requested that GAO conduct a review of U.S. economic and 
security assistance to Egypt. GAO will present today their 
findings of the first phase of the report that deals with the 
NGO and civil society issues.
    Today's hearing is important to tell their stories and let 
us know how this has impacted the lives of these 43 and their 
families and how it has impacted U.S. democracy and governance 
programs in Egypt and elsewhere.
    Our witnesses deserve to be heard. We need to hear their 
story because the fight for civil society, the fight for 
democracy, for governance, for rule of law and human rights in 
Egypt is nowhere near over.
    The transition to democracy is still fragile and al-Sisi 
has a long hard row ahead. One of the easiest ways that he can 
prove to Egyptians and the U.S. that he is serious about this 
task is to immediately and unconditionally pardon the 43 NGO 
workers.
    We have seen mass arrests and we have already seen 
journalists from Al Jazeera arrested and sentenced to 7 to 10 
years in jail. These are not signs of a open inclusive society 
that respects human rights.
    Just because Egypt lives up to its obligations under the 
peace treaty with Israel doesn't mean that the United States 
will continue to provide assistance unconditionally and 
disregard human rights conditions because we will not do that.
    While we recognize Egypt's commitment to the Sinai and 
security threats, there must be an improvement in Egypt's human 
rights record and it must take steps to advance the aspiration 
of the people of Egypt toward democracy.
    And with that, I would like to yield 5 minutes for an 
opening statement from Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman, and I certainly 
associate myself with everything you have just said. It has 
been a privilege to work with you on this matter and am 
requesting the GAO study in question after the conviction of 41 
employees of four non-governmental organizations in June 2013.
    The NGOs, which included the National Democratic Institute, 
the International Republican Institute, the Freedom House and 
International Center for Journalists were operating in Egypt 
with direct U.S. funding. We have provided over $140 million 
for democracy assistance in Egypt since 2009.
    The Egyptian Government had previously objected to NGOs 
receiving this direct funding. In what is perceived as 
retaliation for the U.S. continuance the NGO offices were 
raided in December 2011 and an investigation ensued.
    U.S. State Department put together a concerted effort to 
provide the NGOs with diplomatic, legal and financial 
assistance for their defense. In an unfortunate miscarriage of 
justice, the 41 charged employees were convicted and sentenced 
to 1 to 5 years in prison.
    These wrongfully convicted NGO employees have since had to 
live with the burden and stigma of a court conviction in their 
records. Given this episode and for several other reasons, 
count me a skeptic on Egypt's commitment to promoting civil 
society.
    The military coup in July 2013 and the subsequent brutal 
crackdown against dissidents was a clear message to the United 
States that the democratic transition in Egypt was all but 
over.
    Since the coup, 16,000 people have been jailed and 2,500 
Egyptian citizens have been slaughtered in the streets in 
confrontation with government forces. Congress, fortunately, 
issued a response to the violence when it included in the 
Fiscal Year 2014 omnibus appropriations bill a requirement that 
the Secretary of State must certify that Egypt is meeting its 
commitment to democratic transition and taking steps to govern 
democratically prior to the release of certain military 
assistance.
    While the Secretary has certified Egypt is upholding its 
peace treaty with Israel and its strategic commitments to the 
United States, he has yet to certify Egypt's commitment to 
democracy, understandably.
    It is not difficult to see why. The same military that 
executed the violent suppression of dissent was afforded 
further power and autonomy under the constitution adopted just 
this past January.
    Since the election of Abdel Fatah al-Sisi, the former 
commander in chief of the Egyptian armed forces, government 
actions have provided further cause for concern. In response to 
the conviction of three journalists in June, Secretary Kerry 
responded, ``Today's verdicts fly in the face of the essential 
role of civil society, a free press and a real rule of law.''
    ``I call,'' the Secretary said, ``on the President to make 
clear publicly his government's intention to observe Egypt's 
commitment to the essential role of civil society, a free press 
and the rule of law.'' That is our Secretary of State.
    I welcome statements from the administration that call out 
this regression in Egypt. I hope our witnesses today from the 
four prosecuted NGOs can provide guidance on how we return to a 
path toward democracy in Egypt.
    The draft law and associations released on June 26th by 
Egypt's Ministry of Social Solidarity does not engender such 
confidence and its commitment to civil society by the Egyptian 
Government.
    The law would allow the government to dissolve NGOs that 
``threaten national unity,'' and inspect their office spaces. 
Sound familiar?
    Human Rights Watch has deemed the measure the death knell 
of NGO independence in Egypt. The organizations represented by 
our witnesses have institutional knowledge about operating in 
that country and I would like to know how this new Egyptian 
legislation would further hinder NGOs that have taken up the 
cause simply of trying to promote democratic civil society in 
Egypt.
    I fear that answer will not be a helpful one. Congress must 
consider this and other developments as we weigh requests for 
continued financial and military assistance as part of an 
important bilateral relationship.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Connolly.
    I would like to tell Mr. LaHood that this is a baby 
friendly committee so you should get that little one back. We 
like those sounds.
    So pleased to yield 1 minute to Mr. Wilson of South 
Carolina.
    Mr. Wilson. Thank you, Madam Chairman, and thank you for 
your strong support in promoting democracy in Egypt. Egypt is a 
very important and appreciated friend of the United States. I 
know first hand of the extraordinary people of Egypt.
    My dad passed through the Suez Canal in 1944, as he was a 
Flying Tiger on the way to serve in India and China, and 
recently my son, Julian, served with the South Carolina Army 
National Guard in Operation Bright Star in Egypt and he was 
very, very impressed by the positive people of Egypt.
    We have high hopes for the people of Egypt, one of the 
world's great civilizations and I want to again thank you for 
having this hearing today.
    Ms. Ros-Lehtinen. Thank you to your family for their 
service. Thank you, Mr. Wilson. And now I would like to allow 
Mr. Deutch for his opening statement 5 minutes.
    Mr. Deutch. Thank you very much, Madam Chair, and I would 
like to particularly thank you and Congressman Connolly for 
your leadership on this issue over the past year, in 
particular.
    Thank you to our witnesses for appearing today and I 
welcome back Mr. Johnson. Thanks to you and your colleagues at 
GAO for the great and important oversight work that your agency 
provides.
    It has been a little over a year since the convictions 
against four American NGOs were handed down by the Egyptian 
court. Employees of these organizations were accused of 
political subversion, engaging in political activity and 
receiving unauthorized funds from a foreign source.
    These are still dubious accusations at best and the 
convictions deeply trouble me. Many of us are still hopeful 
that the election of President Sisi can set the country back on 
a democratic path but it is difficult to see a way forward if 
these convictions are allowed to stand.
    The United States has spent tens of millions of dollars 
annually on democracy and governance programs in Egypt and from 
2009 until March 2014 funding for these programs totaled $140 
million and our spending on these projects jumped from $13 
million in Fiscal Year 2010 to about $72 million the following 
year, reflecting the hope that the people's revolution could 
lead to important democratic changes in the country.
    Instead, we saw the election of Morsi's Muslim Brotherhood 
government which led to a brutal crackdown on civil society and 
a severe restriction of human rights. Ultimately, the raid on 
the four U.S.-based NGO offices in December 2011 led to the 
conviction of 43 NGO employees, Americans and Egyptians, in 
June 2013.
    These NGO programs were intended to increase space for and 
widespread participation in civil society organizations. 
Instead, that space is dramatically constricted as U.S.-linked 
organizations were accused of foreign interference.
    The persecution and the prosecution of NGO workers is 
unacceptable. It was unacceptable under Morsi and it is 
unacceptable under President Sisi.
    The United States must send a clear and consistent signal 
to the Egyptian Government and whoever is in power to the 
Egyptian people and to the world that fundamental democratic 
principles such as the rights of assembly and association must 
be upheld.
    Many of us were troubled in November 2013 when the 
government passed the protest law which banned public 
gatherings that were over 10 people without a permit.
    Egyptians are now facing a draft law on associations that 
would impose severe restrictions on civil society organizations 
and subject to undue oversight and interference by the 
government. Let me be clear. I fully support our relationship 
with Egypt.
    It is a critical strategic relationship. But I urge the 
government to avoid any actions that will stifle civil society 
or restrict basic democratic freedoms for its people. The 
country has undergone many changes in the past 3 years and I am 
hopeful for a brighter and more prosperous Egypt.
    The government has maintained its promises to move quickly 
toward elections, but as we all said 2 and 3 years ago an 
election doesn't make a democracy. This government must be 
responsive and it must be inclusive.
    At the same time, U.S. Government policies must reflect the 
shifting environment. Our policies have to be able to predict 
and effectively respond to the actions of Egyptian Government.
    Mr. Johnson, in your testimony you refer to the GAO 
recommendation that State Department and USAID should determine 
lessons learned from the NGO incident and incorporate them into 
future policy.
    I look forward to hearing how we can ensure that the kind 
of work that we want to do with civil society can continue 
while ensuring that those on the ground have the necessary 
protections that they need.
    Now, I know that there are those who believe that the U.S. 
should disengage from countries when there seem to be 
discrepancies between their approach to democracy on a daily 
basis and our own, particularly if those countries are far 
away.
    But I firmly believe that our partnership with Egypt is 
vital to ensuring the security of this country. Cooperation 
with the United States and our regional partners like Israel 
and Jordan on security issues is just one piece of that puzzle.
    A strong, stable and prosperous Egypt can serve as an 
anchor in a volatile region and we have to seek a balance in 
our relationship accordingly.
    To our witnesses and the organizations you represent, thank 
you for the work you are doing around the world to build civil 
society, to strengthen the rule of law and governance and to 
promote human rights.
    The prosecution and conviction of these 43 men and women 
should remind us that the work that you do is not easy and we 
are grateful for your efforts, and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Mr. Rohrabacher is recognized for 1 minute.
    Mr. Rohrabacher. Thank you very much.
    We should note that many of the things that we will be 
judging Egypt on are not going to be based on what has happened 
during a time of turmoil where you have a change of authority 
in government.
    Egypt came this close to being dominated by a radical 
Islamic philosophy that would have destroyed the chances for 
peace and stability anywhere in the Middle East, especially in 
dealing with the Israeli conflict that is going on right now 
between the Israelis and the Palestinians.
    And the people of Egypt went into the streets by the 
hundreds of thousands and, joined by the military, decided they 
were not going to have a radical Islamic caliphate controlling 
their country.
    During that time, when that was being prevented, yes, there 
were people--many people who were arrested who would not be 
arrested under normal circumstances and it is time now, 
however, for those of us who support a democratic and stable 
and positive Egypt to join with others in the demand--not the 
demand but the request of the current government to start going 
back toward real democratic principles and they could start, 
for example, by releasing these 43 NGO workers that were 
arrested and by releasing the six journalists that are now 
being held in Egypt that President al-Sisi now says was a 
mistake to have them arrested in the first place.
    So let us hope--let us not judge Egypt on what happened 
during this time of turmoil as they were changing and trying to 
get away from a radical Islamic caliphate and toward a more 
democratic society. Let us now judge them as they build their 
democratic society and judge them based on how they do with 
this things like this.
    Thank you very much for your leadership, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Cicilline is recognized for 1 minute.
    Mr. Cicilline. Thank you, Madam Chairman, and I want to 
thank you and Ranking Member Deutch for calling this very 
important and timely hearing on the state of civil society in 
Egypt and I particular want to thank you, Chairman and 
Congressman Connolly for your early leadership and requesting 
the review and report, which we will hear about today.
    Egypt has been an important and long-time ally of the 
United States and receives $1.3 billion in military aid each 
year. Yet despite public statements supporting democratic 
changes, the military-led government has failed to carry out 
many basic reforms that would signal its commitment to rule of 
law, human rights and media freedom.
    The egregious case of the four organizations before us 
today is just one example. Though this case began under a 
different government also led by the military, the current 
leadership has done nothing to rectify it.
    Meanwhile, the staff involved have had their lives 
threatened, their families harassed, their reputations 
questioned and some have had to flee the country to avoid 
prison.
    Since the al-Sisi government took over, civil societies 
have faced harassment, journalists have been imprisoned and 
more than 16,000 political prisoners have been detained. 
Political reform takes time, to be sure, but Egypt is not on a 
good trajectory at this point in time, and I look forward to 
hearing the testimony presented today, particularly the 
panelists' views on how the United States can productively 
support reforms that protect fundamental human rights in Egypt, 
and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicilline.
    Seeing no further requests for time, our subcommittee is 
delighted to welcome back Mr. Michael Johnson, who is the 
senior executive and director of international affairs and 
trade at the U.S. Government Accountability Office.
    In this role, he assesses U.S. counterterrorism and 
security efforts focusing on Afghanistan, Pakistan and other 
terrorist state safe havens.
    Prior to this position, Mr. Johnson was an assistant 
director in GAO's homeland security and justice team, and he 
also spent a year detailed to the House of Representatives 
Homeland Security Committee, you poor thing.
    Was that under Peter King? Oh, that has got to hurt. Thank 
you so much----
    Mr. Connolly. He used to have hair then, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Johnson. You are 
recognized and your prepared statement will be made a part of 
the record.

   STATEMENT OF MR. CHARLES MICHAEL JOHNSON, JR., DIRECTOR, 
      INTERNATIONAL SECURITY AND COUNTERTERRORISM ISSUES, 
      INTERNATIONAL AFFAIRS & TRADE TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Johnson. Thank you, Madam Chair. Madam Chairwoman Ros-
Lehtinen, Ranking Member Deutch and members of the 
subcommittee, I am pleased to be here today to return before 
the subcommittee to discuss the results of our report being 
released today on U.S. democracy assistance efforts in Egypt.
    This report focuses on three issues--first, the extent to 
which the U.S. Government can identify and manage the risks of 
providing direct assistance through the Democracy Assistance 
Program in Egypt; second, the types of support that the U.S. 
Government provided to the nongovernmental organizations; the 
extent to which the U.S. Government Democracy Assistance 
Program was affected by the prosecution of NGOs. But before I 
get into the specific findings of that report I would like to 
provide a little context.
    For over 30 years, as you have noted, the Egyptian 
Government has been a key U.S. partner, receiving billions of 
dollars in U.S. economic and military assistance. For over a 
decade, the U.S. Government has funded democracy assistance in 
Egypt at the tune of approximately $140 million since Fiscal 
Year 2009.
    This included direct funding to NGOs totaling about $65 
million after the January 2011 revolution which ended, as you 
know, the Mubarak presidency. The Egyptian Government, however, 
objected to how the U.S. was providing this assistance to NGOs, 
asserting that the U.S. was violating the terms of an agreement 
of process that the two governments had outlined.
    The Egyptian Government raided, as you noted, the offices 
of several NGOs including four U.S. NGOs, and charged and 
convicted employees of these four organizations with, among 
other things, operating an unauthorized organization in Egypt.
    The U.S. Government noted its disagreement with the actions 
and the efforts and views of the Egyptian Government. With 
respect to the findings outlined in the report being released 
today, first, I would like to note regarding the efforts to 
identify the managed risks we did find consistent with State 
Department and USAID and Federal internal control standards 
that the U.S. Government had identified and took some steps to 
manage the risk of funding democracy assistance in Egypt. Some 
of that effort goes back to 2005.
    This included awareness of the Egyptian Government's likely 
objection to the U.S. plans to directly fund NGOs after the 
2011 revolution. We do note, however, in our report that State 
and USAID had not done enough to document and incorporate the 
lessons learned from the experience in Egypt. Applying lessons 
learned, as we previously reported, can among other things 
inform future decisions helped to inform future work processes 
and activities and provide a way forward.
    Second, and related to NGO support, a report that the U.S. 
Government had provided the four prosecuted NGOs with 
diplomatic, legal, financial and grant flexibility support. 
With respect to diplomatic support, this included holding 
multiple meetings with Egyptian officials to try to defend or 
prevent the prosecution of NGO employees.
    Legal support included working with NGO lawyers to develop 
legal strategies. Financial support allowed the four NGOs to 
use about $4.9 million in grant funding to pay for various 
legal costs. NGOs were also allowed to modify their grants, to 
adjust their planned activities and time lines.
    Third, we report that the prosecution of NGOs did in fact 
affect U.S. democracy assistance in Egypt. More specifically, 
the four prosecuted U.S. NGOs currently cannot operate and 
conduct activities inside Egypt and these NGOs had to cancel 
some activities such as election observations, voter education 
and political party training.
    As the figure you will see that is being projected shows, 
since the start of the NGO trials in 2012 the amount of U.S. 
funding for democracy in governance projects in Egypt has 
decreased, going from a high of about $72 million in Fiscal 
Year 2011, as some of the members noted, to about $6 million in 
Fiscal Year 2013, its lowest level during the 2009-2013 time 
frame.
    The number of awards, as the figure also shows, also 
declined during the same period, from a high of about 100, as 
the figures shows, in Fiscal Year 2011, to a low of about 15 is 
Fiscal Year 2013.
    In closing, we recommend in our report that the Secretary 
of State and the USAID administrator take steps to incorporate 
lessons learned from the U.S. experience in Egypt into plans 
for managing aggressive future democracy assistance efforts. 
The State Department and USAID both concur with our 
recommendation.
    I thank the subcommittee for the opportunity to testify 
today and also would like to personally thank the GAO staff who 
traveled with me in Egypt--Ryan Vaughn, Drew Lindsey, and 
Rachel Dunsmoorfor their efforts on this particular engagement. 
This concludes my prepared statement. I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Johnson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Charles Michael 
Johnson. Thank you.
    We just had the pleasure of receiving your testimony last 
month on our reconstruction efforts in Afghanistan--we thank 
you for that--and your GAO team's assessment of our oversight 
and accountability of U.S. assistance there in Afghanistan, and 
while this report is focused on our democracy and governance 
programs in Egypt, your report has a certain similarity to the 
previous one.
    You reported that even though State and USAID have been 
receptive to your recommendations--and from looking at the 
report you paint both agencies in a good light in terms of how 
they reacted to the NGO trial in Egypt and how they supported 
the four NGOs and their employees--but there is still a 
lingering problem with the access that you were given.
    You told us at the last hearing that it would be helpful if 
State and USAID granted your team more timely access to the 
documents that you had requested and I am seeing that same 
theme in this report.
    Could you comment on how this issue--timely access to 
documents--impacts your work?
    Mr. Johnson. Yes. I would like to note that we continue to 
experience some challenges in getting timely access. The 
process in particular for getting access from both USAID and 
State in particular on this Egypt engagement was quite 
burdensome and difficult. They were--you know, both agencies 
required, as I noted in my last testimony, our employees to go 
to a reading room to look at materials.
    They limited our ability to take notes and also to make 
copies of the documents as well. This is definitely an 
unnecessary and burdensome type of approach for us to do our 
work and provide you guys information in a timely manner.
    So we continue to experience some challenges with both 
agencies. In particular, Egypt is one of the case studies that 
we worked out an agreement with USAID to see how things can be 
improved and I would have to say that this case study is not 
going well at all.
    Ms. Ros-Lehtinen. Well, following up on what you just said, 
you say that lessons learned from Egypt should inform future 
U.S. plans and that Egypt is a model case. But, clearly, this 
all happened or the process began several years ago.
    Is there any indication that State and USAID identified 
these problems in Egypt and began implementing corrective 
measures across the board to avoid a future scenario like the 
one we saw in Egypt early on in the process and has there been 
this--or has there been this slow learning curve?
    Mr. Johnson. Well, one thing I want to note is it has been 
made clear to us that we have seen this in the work we have 
done. It is definitely a challenging situation that the U.S. 
Government finds itself in, both State and USAID.
    With respect to lessons learned, as I note in my opening 
statement, they were aware of the risks back in 2005, as early 
as that point in time. There have been some actions that have 
been taken that they highlight in terms of establishing working 
groups and country groups that will look into this issue.
    As part of our recommendation we also follow up to see to 
what extent is that going to specifically address what we have 
asked for and that is to document the lessons learned and to 
apply those to future plans going forward.
    So we will be monitoring that. I think they have up to 60 
days to respond to their authorizing committees to their 
specific actions but they did concur.
    Ms. Ros-Lehtinen. Thank you. Your report and testimony 
discusses the U.S. Government's work with these NGOs and our 
democracy in governance programs. During the course of your 
fieldwork, though, you interviewed local Egyptian NGO workers 
and government officials.
    Who did you meet with in Egypt and what did you take away 
from that meeting? Do they feel like civil society remains 
under attack? How does the Egyptian Government describe the 
case of these NGOs and their employees?
    I remain concerned that they aren't really sure yet which 
direction al-Sisi will take Egypt and the new constitution 
certainly included some good revisions but also some troubling 
ones. The new NGO draft law is very troubling and the mass 
arrests and the trials aren't in line with democratic ideals.
    One of the most important things that al-Sisi can do to 
prove to the international community that he is serious about 
leading Egypt into this new era of democracy is to pardon these 
43 NGOs and the U.S. must continue to press this as a top 
priority.
    Al-Sisi says it is not within his power, that he cannot do 
that. Can you tell me about who you met with and what is al-
Sisi--should we push him to pardon them or will he not go that 
way?
    Mr. Johnson. We actually had a lot of success in country 
meetings with various officials, the U.S. Government officials 
as well as some of these civil society groups, and in addition 
we met with some members of the Egyptian ministries, in 
particular Dr. Bakr, who at the time was the deputy minister of 
international cooperation.
    Different viewpoints and different perspectives, obviously, 
as I noted earlier there is some disagreement between the two 
parties. Let me first comment with respect to the meetings we 
have had with the U.S. State Department and the USAID 
representatives.
    They made clear to us some of the positions they were 
taking in terms of not agreeing completely with the positions 
that the Egyptian Government was taking and what they were 
doing to support the NGOs and in particular to find some relief 
for those who were prosecuted. With respect to the Egyptian 
Government, basically their position was that the NGOs were in 
violation of their Egyptian laws in particular and that----
    Ms. Ros-Lehtinen. They were not given a chance to register.
    Mr. Johnson. Exactly. That came out of a lot of the focus 
group meetings we had. We met with about 17 civil society 
organizations in country, had various round tables.
    The views were a variety of views but in particular we did 
hear quite a bit that the registration process was extremely 
burdensome and some had registered as far back as 2006 and were 
still waiting on registration.
    Ms. Ros-Lehtinen. Thank you very much, Mr, Johnson. Very 
pleased to yield to the ranking member, my good friend, Mr. 
Deutch of Florida.
    Mr. Deutch. Thank you very much, Madam Chairman.
    Mr. Johnson, do State and USAID have the authority to 
respond to the kind of risks that they face? Are they--are 
there regulations, are there laws that make it more difficult 
for them to be able to tackle the challenges that they face--
the risks that they face?
    Mr. Johnson. In terms of--obviously, foreign policy issues 
and how we deal with challenges overseas is the purview of the 
State Department as well. That is their role.
    In terms of risk mitigation, we have long reported, whether 
it is this type of situation or even working in a dangerous 
environment that a risk mitigation strategy needs to be in 
place and taking that, obviously, the practice that we see many 
of our agencies undertake and as we reported is that you need 
to apply lessons learned and build on your previous experience 
in the way forward in terms of how you proceed.
    So in terms of the ability to do it, we definitely believe 
and we think that they do have that ability to mitigate risk 
and to plan for that risk in advance as they move forward.
    Mr. Deutch. And so building on lessons learned in what way 
and are there other countries where lessons have been learned 
that can be applied here as well?
    Mr. Johnson. Yes. I mean, just a month ago I talked about 
the lessons learned that the U.S. Government can take from the 
experience in Iraq and apply those to Afghanistan. That has 
been a long-standing thing that has been mentioned and as we 
talked about in that hearing, you know, the shift from the 
military-led to civilian-led presence there are lessons learned 
there.
    Similarly, here if we see a situation where the partner 
country is not as receptive to democracy, obviously, we have an 
experience here as the U.S. is going to face--is likely to face 
this challenge in other environments. They need to apply those 
lessons to those experiences going forward. And even as we go 
back in and there--if there is any effort to have conversations 
and discuss this with the Egyptian Government, these lessons 
that we have gone through need to be a part of that process.
    Mr. Deutch. What does that mean? There is a part of the 
country that is not as responsive to democracy--what does that 
mean?
    Mr. Johnson. Obviously, we are well aware that some of the 
ministries and some of the members of the Egyptian Government 
were not as receptive to the types of civil societies that the 
U.S. and its NGOs were promoting or even NGOs--even Egyptian 
NGOs were promoting and looking forward to. So that needs to be 
taken into consideration as we move forward in developing new 
policies.
    Mr. Deutch. What would those policies be and what message 
would be helpful coming from here to support those policies?
    Mr. Johnson. Well, GAO is not in a position to comment on 
policy. That is the purview of the Congress, the administration 
and the various agencies. What we would say is that the lessons 
learned from Egypt and other experiences need to be applied to 
that decision as we move forward.
    Mr. Deutch. All right. So then go back to what you can 
actually comment on, which is what to learn from those lessons. 
I appreciate that. We will worry about the policies.
    So you make the suggestions, though, on what would actually 
matter on the ground for these NGOs and for people who are 
trying to build democracy.
    Mr. Johnson. Right. I mean, obviously, we have gone through 
an experience here and obviously there are different approaches 
that we have taken in terms of the types of assistance that is 
provided. Those are things that we have an experience in that 
we can learn from those lessons going forward.
    There are, you know, different types of organizations that 
we fund and actually the U.S. has had some success working with 
the Egyptian society and actually moving forward on some 
democracy assistance efforts. So there are ways that this has 
worked.
    Mr. Deutch. Right. So let us try that again. Give me an 
example of something that works that could be used as a model, 
that could be replicated elsewhere and----
    Mr. Johnson. Well, again, just to emphasize, we don't do 
policy but we are aware that there were some organizations that 
were not subject to the NGO registration requirement that can 
also carry out similar activities. So that is an alternative 
approach. Obviously, when we are working in environments that 
are not conducive or that are challenging we need to find a way 
to mitigate and, obviously, that needs to be in the form of 
these focus groups that they are talking about pulling 
together, working groups, can study the different things that 
actually may be acceptable, reach some compromise agreement on 
those and try to work through the other means by which we can 
move forward on other initiatives.
    Mr. Deutch. I am uncomfortable, though, with the suggestion 
that the way to move forward is to find the groups that have 
not been singled out and have not been prosecuted. I would 
rather figure out how to avoid having groups who are there to 
promote democracy.
    Mr. Johnson. And I 100 percent agree with that. What we 
don't want to do is find ourselves in a situation again where 
we are doing things ad hoc or we are doing them on the fly as 
things are evolving.
    Egypt gives us an opportunity to take these lessons, to 
document those lessons when you find yourself in a similar 
situation in any other environment to know what actually was 
effective in terms of what worked.
    Mr. Deutch. That is great. I appreciate that. Thank you, 
Madam Chairman.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Weber.
    Mr. Weber. Thank you, Mr. Johnson. In reading your remarks, 
you said the U.S. Government increased the amount of funding it 
awarded to Egypt for democracy and governance assistance from 
approximately $13 million in 2010 to approximately $72 million 
in 2011. This funding included an increase in direct funding to 
NGOs totaling about $65 million.
    Mr. Johnson. That is correct.
    Mr. Weber. I am doing the math and the increase from $13 
million to $72 million is not $65 million. Did I miss 
something?
    Mr. Johnson. The increase from $13 million.
    Mr. Weber. To $72 million.
    Mr. Johnson. Okay.
    Mr. Weber. And it says this funding included an increase in 
direct funding to NGOs totaling about $65 million after the 
2011 revolution.
    Mr. Johnson. Right.
    Mr. Weber. Okay.
    Mr. Johnson. The figure--the combined figure that talks 
about it--is approximately $71.6 million in terms of democracy 
assistance in 2011. Not all of that would have been direct 
funding.
    The portion we are highlighting in 2011--the surge, as we 
would call it, or the increase--was $65 million in direct 
funding to the nongovernmental organizations.
    Mr. Weber. Okay. So in December 2011, according to your 
testimony, the Egyptian Government raided the offices and, of 
course, as we have noted, they arrested and charged. And so now 
we are saying that the U.S. organizations and the Konrad 
Adenauer Foundation and NGOs had to close their operations in 
Egypt. Is there a vacuum?
    Mr. Johnson. As I also noted there are some groups and some 
societies that are or have, you know, undertaken some of the 
civil society initiatives. There were some efforts that they 
are currently no longer able to undertake.
    I think the political party strengthening was one of the 
areas probably that was impacted that these groups were 
involved in. Again, there is a variety of different civil 
society groups that the U.S. has funded that are operating 
there.
    Mr. Weber. Okay. And what happens to the $65 million?
    Mr. Johnson. The $65 million has been awarded. As I 
mentioned earlier, there was some grant flexibility allowed 
where some of the organizations were able to do alternative 
things.
    One example is where instead of--I got to be careful how I 
present it--some of the information is sensitive and 
classified--there were some efforts to do some of the things 
online as an alternative approach to continue to move forward 
some of the initiatives.
    In addition, some of the time frames were pushed out to 
allow the organizations to fulfill their agreement with the 
grants, in particular. Some of the financing, as noted earlier, 
was used to provide legal assistance or support for legal costs 
to some of the NGOs.
    Mr. Weber. Okay. When you say online that was one of my 
questions from later on and that is does Egypt have a robust 
open Internet?
    Mr. Johnson. I am not sure if I can comment on whether the 
Internet is robust and open. From my own personal experience 
there didn't seem to be a problem in accessing some things 
through wireless. But then again, I was in a decent hotel.
    Mr. Weber. Sure, the NSA is not reading those emails too. 
Did I say that out loud?
    Mr. Johnson. I have no comment on that particular issue. I 
am not aware of that.
    Mr. Weber. Okay. And some say that the United States should 
no longer provide aid. Some say we should provide more aid and 
they argue that the United States must increase funding for 
democracy and human rights, especially at a time when Egypt 
needs more funds.
    In your view, how could the U.S. Government best promote 
the advancement of human rights including religious freedom in 
Egypt and how would you break that spending down?
    Mr. Johnson. Okay. The specific human rights issue as a 
part of our broader engagement and review that we are going to 
be undertaking in response to a request from this subcommittee. 
We will be reporting hopefully on that issue later. We have a 
much broader review. This democracy and governance issue is a 
smaller subset so at this time we are not prepared to comment 
on the human rights issue.
    Mr. Weber. Okay. The head of Egypt's National Council for 
Human Rights called for a delay in passing the law until a new 
Parliament is elected. What is that date? Do you know? When is 
the new Parliament election?
    Mr. Johnson. I believe it is in the fall. In the fall is 
the time frame we were given.
    Mr. Weber. Do you know the date or the month in the fall?
    Mr. Johnson. Let me consult with my staff. Around October 
of this year is what we were told. We don't have a specific 
date but October was the month we have been made aware of.
    Mr. Weber. Sounds like my grandfather when he was about 90. 
I asked him when he was born and he said, ``In the spring, I 
think.'' So all right. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Connolly of 
Virginia is recognized.
    Mr. Connolly. Thank you. My friend, that reminds me of a 
story about a man in his 90s, an Irishman, and was asked, you 
know, when his birthday was and he said, ``You know, March 
18th,'' and somebody said, ``What year?'' And he went, ``Every 
year.''
    Okay. Mr. Johnson, thank you for being here and thank you 
for responding to the chairman's request and mine. Did you 
interview the NGO personnel who were charged and convicted?
    Mr. Johnson. Yes, we did.
    Mr. Connolly. And what was it they were charged with?
    Mr. Johnson. Specifically, I guess, our reading is that 
they were charged with operating an unauthorized organization 
in Egypt. That was one of the charges. There is some additional 
insight in our more sensitive report that you are receiving 
later today.
    Mr. Connolly. Was there not also if not an explicit charge 
certainly an implicit charge they were working for a foreign 
agent, namely, the United States Government and that that was 
contradictory to the interest of the Egyptian Government?
    Mr. Johnson. We did not specifically see that but I have 
been made aware that that has been some of the allegations.
    Mr. Connolly. Yes. In fact, I think it was an explicit 
allegation made by the minister at the time during the previous 
administration. And is it not true that when somebody is tried 
in an Egyptian court they are put in a cage? Is that correct?
    Mr. Johnson. I don't have the details of how they are 
detained.
    Mr. Connolly. Take it from me. And it is a very humiliating 
experience for a young person. Their families see this. They 
are ashamed to go back into their communities and trying to 
explain this is a huge burden.
    So there is a lot of shame, in addition to the fact you 
have got a conviction on your record. The whole process is a 
degrading and demeaning process and deliberately so. Is that 
your understanding?
    Mr. Johnson. Some of the views--as I mentioned, we have met 
with the four prosecuted NGOs and those in country. Obviously, 
they feel as if the situation they were put in was a 
challenging one.
    Mr. Connolly. Did you see any difference between the Morsi 
government and the al-Sisi government with respect to this 
issue?
    Mr. Johnson. At the time of our review and in-country visit 
there was--Sisi was not in power as the President. We did not 
see much of a difference between the Mubarak period and the 
Morsi period.
    Mr. Connolly. Well, we are now in the al-Sisi period and 
the military government has been in power for a year. Are you 
aware of any difference? Getting any hints, some emails, some 
notes, someone whispering in your ear that maybe this 
government's got a different attitude from the previous two 
governments with respect to these innocent NGO personnel who 
have been arrested?
    Mr. Johnson. We definitely look forward in the ongoing work 
we have underway for you, Congressman, to continue to pursue 
that and follow up and update the report based on this time 
frame we have here.
    Mr. Connolly. Yes. I do think this subcommittee is going to 
be very interested in the answer to that question because one 
sense is there is no difference. You talked about lessons 
learned and risk mitigation strategies with respect to State 
Department and AID. How did you feel their response was to 
those two things that you think are very important as part of 
your recommendations?
    Mr. Johnson. I think they were open to our recommendations 
so that is a good sign. I would say, during the course of our 
work, that obviously this is a very sensitive topic.
    You know, noting--we didn't go as far as to say there were 
specific detail risk mitigation plans but we did give the 
agencies credit for identifying risk and taking some steps to 
manage the risk so we use the word manage the risk.
    Obviously, this goes back, as I said, to 2005. In 2011 or 
'13 actually there was a cable that we referred to in the 
report that they--a global cable that was done that began to 
raise awareness on challenges to democracy and its assistance 
globally.
    Mr. Connolly. You visited Egypt yourself?
    Mr. Johnson. Yes, in March.
    Mr. Connolly. In March. And when you visited the Embassy 
and our AID mission did you have a strong sense that this was a 
high priority issue for them in the great panoply of issues?
    Mr. Johnson. I had a strong sense that the entire U.S. 
Egyptian relationship was a high priority for the folks there 
and I got that viewpoint from our State Department as well as 
some of the Egyptian Government officials on the defense side.
    Mr. Connolly. I am sorry. I didn't understand your answer. 
I am asking about the fate of these 43 individuals----
    Mr. Johnson. Forty-three.
    Mr. Connolly. Is that--did you get the sense when you were 
there----
    Mr. Johnson. Yes.
    Mr. Connolly [continuing]. This is a high priority in the 
constellation of the relationship?
    Mr. Johnson. Yes. I would--I would say we would take that 
away as----
    Mr. Connolly. Good, because I think that is really 
important that the Egyptian Government understand that we are 
not letting up on this and we do care about these individuals a 
lot irrespective of nationality. Thank you very much. Thank 
you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly, and Mr. Chabot 
of Ohio is recognized for 5 minutes.
    Mr. Chabot. Thank you very much, Madam Chair, and I 
apologize for having to come and go. I have got actually three 
hearings going on at the same time and I appreciate your 
patience here.
    Mr. Johnson, thank you for your--and I will read your 
testimony. I just had a couple of questions here. First of all, 
I am pleased to hear that efforts were made to amend the 
controversial 2012 constitution by referendum in January. 
However, I, and I know others, had some concern about the new 
constitution granting greater power to the military including 
military trials of civilians, and if you have already addressed 
this issue I apologize. But could you comment on that issue?
    Mr. Johnson. We really didn't look in detail at that issue 
in terms of greater power. That is something--we are going to 
look--we have a broader review, as I noted earlier, that we 
have underway for the subcommittee and we are going to look at 
the entire U.S. assistance and our relationship on the defense 
as well as civilian side.
    So at some point we are going to look at--specifically we 
are focused on how the U.S. may have adjusted its strategic 
objectives in Egypt over time. So we may touch on that issue in 
our additional work down the road.
    Mr. Chabot. Okay. Thank you. And another issue I wanted to 
touch on and I know we have--I heard Mr. Connolly talk about 
the NGOs and how the government has been pursuing them and how 
that has made their lives in many ways literally hell, even if 
they are outside the country and it makes traveling and a whole 
range of other things more difficult.
    And I had the Egyptian Ambassador in my office recently and 
we discussed this and a lot of issues at length, and we 
obviously give Egypt a significant amount of aid and it is one 
of the highest countries that we do provide that aid, and I 
have supported that in general over the years because they have 
been a very important ally and their relationship with Israel 
and their leadership in normalizing relations with Israel has 
been significant not just to the region but to the whole world 
and so I commend them for that.
    All that being said, that clearly is one leverage point 
that we have with them on this whole NGO issue and resolving it 
in a manner that we think would be just and acceptable to all 
involved.
    And, of course, he indicated that it could be--I won't go 
into all the reasons that he gave me in a public forum here but 
they would prefer that we not stop the aid until this issue is 
resolved. Could you comment on that to the extent that you can 
in a public forum like this?
    Mr. Johnson. Well, the decision to stop or to fund or not 
fund is a policy decision that the agency and the 
administration and the Congress would have to make.
    I guess our primary purpose on this review was to look at 
what the U.S. has done to provide some sort of a way forward 
and our takeaway on this particular job is to definitely apply 
these lessons learned from Egypt from this experience as we 
decide then whatever strategies we use, even if that includes, 
you know, certification requirements, withholding funds or 
conditioning funds, that is a policy decision.
    That is something that we think needs to be considered as 
we do this again in other countries or even continue this in 
Egypt. Again, that is up to the Congress and the administration 
to make that determination.
    Mr. Chabot. Okay. Thank you. Let me just conclude with more 
a statement than a question but it seems that a lot of the NGO 
personnel who have been prosecuted both Americans and otherwise 
that the charges on failing to register or not registering 
appropriately or operating without the proper documentation and 
those types of things that it wasn't at all unusual for this 
practice to go on and I don't think anybody was trying to do 
anything illicit here or to break laws intentionally or 
anything else. They were just trying to provide a service to 
Egypt that Egypt should be grateful for rather than coming down 
so hard.
    And this is certainly one of the things that I am going to 
measure this new government by--how they deal with this--
because I wasn't a big fan of the Morsi government and as a 
Member of Congress and as a former chair of this committee in 
the last Congress I was, quite frankly, pleased to see Morsi, 
who I thought was a real danger to the country, removed and I 
don't necessarily like seeing a government displaced in 
extralegal ways.
    But in measuring this government, the way they deal with 
this is going to be one of the things that I am going to 
consider very much on whether--how much my support will be. So 
thank you very much and my time has expired.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chabot. You and 
many others as well. Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Ms. Chairman.
    Thank you, Mr. Johnson. I would like to first focus on your 
testimony relative to State and USAID's development of risk 
management plans, and did you find that those assessments that 
are done to both develop a risk management plan and to develop, 
obviously, plans to mitigate risk are done are country specific 
and how often are they updated and do you have a recommendation 
as to a change in that policy?
    Mr. Johnson. We don't have a--we did not make a 
recommendation to change the policy because the policy actually 
exists in terms of them developing country-specific plans.
    The issue here for Egypt is that that has not been 
completed and I would say that is an issue beyond Egypt and 
other priority countries that the U.S. has on its radar as part 
of our priority.
    Several country plans have not been completed despite the 
fact that some of the countries may be priorities in terms of 
U.S. national security or U.S. foreign relations issues. So 
that is a challenge and we have heard that, you know, some of 
the country teams and country folks in country actually would 
welcome such plans being completed. The lessons learned piece 
would be a part of that--should be a part of that. Part of 
these plans should include risk management strategies.
    Mr. Cicilline. I am going to get to lessons learned in a 
moment but what I am asking is very specific. Is it the current 
practice of USAID and the State Department to have country-
specific plans that assess the risk to NGOs and suggest--make 
recommendations to mitigate that risk?
    Mr. Johnson. If it is a best practice in internal control 
standards there should be risk mitigation plans. Our programs--
--
    Mr. Cicilline. I am asking do they currently--is that 
protocol currently in place at USAID and State?
    Mr. Johnson. There is a requirement to have the country 
plans and as I was noting the country plans should and are 
required to have some sort of risk mitigation as part of those.
    Mr. Cicilline. Okay. And are they required to be updated 
regularly, annually or less than that?
    Mr. Johnson. It is my thought that those country plans are 
done within a range of time of 3 to 5 years.
    Mr. Cicilline. Yes. The reason I am raising this it seems 
to me that in the world in which we currently live the notion 
of, A, not having a plan or not having a plan that is not 
updated regularly is useless. I mean, we are talking about 
environments that are changing very quickly and it seems to me 
and I am asking whether you agree that it would be helpful to 
obligate USAID and the State Department to develop risk 
management plans and to give specific guidance to NGOs about 
the work that they might do on the ground that are country 
specific and very current.
    Mr. Johnson. Again, we didn't make a recommendation on that 
but given they have an existing requirement or policy for the 
development of country plans we would support the notion of 
those plans should be routinely updated as a best practice for 
strategic planning and risk mitigation planning. So absolutely 
those things should be in place and should be routinely 
updated.
    Mr. Cicilline. Okay. Thank you. And Mr. Johnson, you just 
mentioned that the conclusion both in your written testimony 
and in your testimony today is that there are lessons to be 
learned and that both USAID and State should be sure to 
integrate and share those lessons within the internal workings 
of the agency.
    But while I recognize we ultimately may get to weigh in on 
the public policy surrounding the lessons, presumably you drew 
some conclusions about facts on the ground and what in fact 
those lessons are.
    So what lessons--what lessons are there to be learned, 
recognizing we will decide what the response is in terms of 
policy but you, clearly, made some conclusions about what the 
lessons are?
    Mr. Johnson. Well, obviously, there was a lesson learned in 
terms of being prepared to provide support to the 
nongovernmental organizations and having that strategy planned 
out in advance.
    If you know you are going to a situation where there may be 
a challenge to any of the implementing partners or U.S. 
personnel you should in advance be planning for how you are 
going to mitigate and counter those challenges or adverse 
consequences, as we often say. You just have to do that in 
advance.
    That is the way of further protecting or deciding how you 
adjust and make sure you support the U.S. taxpayers' dollars 
that they are not subject to any misuse or indirect use or 
unintended use. So absolutely document those things.
    Mr. Cicilline. There are other lessons--are there other 
lessons that you think are to be learned from what you reviewed 
in Egypt?
    Mr. Johnson. I think there is the discussion that you have 
with your partner nation that you are engaging with. Those are 
things that we have seen happen, documenting across as we have 
seen.
    As I mentioned, there is this April 2013 cable that lays 
out some of the things that they have--were warning others to 
pay attention to in the global setting. But we do think State 
and USAID need to document all those lessons and what they took 
away from this experience.
    Mr. Cicilline. Well, I would think--just ask if you would 
give that some thought and if there are additional lessons to 
be learned, recognizing we have an opportunity to respond to it 
in terms of policy but having the benefit of what you have 
identified as important lessons would be helpful.
    Mr. Johnson. Well, I guess just to quickly comment, the 
activities that they can--they know they can do can be 
documented that are less subject to being criticized or 
challenged.
    Also, alternative ways to deal with some of the challenges 
should be documented, knowing that where there are more 
challenging efforts in certain types of activities should be 
laid out, those are less challenging.
    Mr. Cicilline. Madam Chairman, I just want to say--and 
thank you again because I think this hearing gives us an 
opportunity to, again, reaffirm the ongoing commitment of the 
United States Congress to press the Egyptian Government to 
address this issue not only for the Americans and the American 
NGOs but for all the individuals and organizations that are 
engaged in democracy building and strengthening of civil 
society.
    And I think that Congressman Connolly's point that this is 
something that we intend to stay on and is important to the 
American people, to our country and to our standing in the 
world.
    And I thank you, Madam Chairman and Ranking Member Deutch, 
for giving us the opportunity to make that point very clearly, 
and with that I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicilline.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. Mr. Johnson, appreciate 
you being here.
    Mr. Johnson. Thank you, sir.
    Mr. Yoho. I have met with several people from Egypt, you 
know, in the roles of Ambassador and associated with the 
Government of Egypt and I asked them the sentiment of what they 
see--their outlook when they look at America--what do they see, 
what do they don't like of your neighbors in the Middle East. 
And I was not--I guess I was a little bit surprised.
    He said the sentiment is that America has lost their 
credibility. They have lost their way. We don't know where you 
stand and the good will that you had has disappeared and that 
you meddle too much.
    And then I am reading here the GAO recommendations that the 
State and USAID incorporate lessons learned from the experience 
in Egypt into risk management plans for future democracies and 
government assistance office--or efforts. What have we learned 
that we can do differently so that we don't make the mistakes 
of the past, in your opinion?
    Mr. Johnson. Again, I would go back and say policy 
decisions we leave those up to the agencies, the administration 
and the Congress. Obviously, being aware, as I mentioned, that 
State and USAID were and the U.S. Government was of the views 
of our partners are important.
    That is something that needs to be documented, and going 
back to comments on the country plans our lessons learned is 
to--in your priority country area is having those country plans 
that are required include risk mitigation plans or documenting 
some of the challenges to some of the priorities that we have 
is important.
    I think that is something that we have heard that the 
country teams and the folks in the mission would welcome and 
encourage.
    I mean, that is a huge lesson learned that needs to be 
acted on, that sometimes you need to prioritize which country 
plans you do first and get those done.
    Mr. Yoho. But from your experience what do you find? Are 
you getting resentment or blowback and the people saying, you 
know, you guys just need to back off--let us figure out some of 
these problems?
    I have got something here that says when did the U.S. 
Government first identify the possibility that the Egyptian 
Government might oppose U.S. direct funding for democracy 
assistance?
    What that means to me is they don't want the democracy 
assistance--we will work these things out--you are meddling too 
much. Are you seeing that?
    Mr. Johnson. I think we have seen that mentioned by a few 
individual government officials who were running some of the 
ministries in Egypt.
    In terms of some of the civil society groups we met with in 
Egypt who were actually Egyptian NGOs or Egyptian civil society 
groups they actually welcome the U.S. assistance and the U.S. 
efforts in support in terms of promoting democracy.
    Mr. Yoho. Okay. That assistance, is it going--is it 
effective as far as are we getting the results that we as a 
nation that is helping them out--are we getting the results we 
want?
    Mr. Johnson. Again, looking at--as part of a broader 
engagement one of our objectives is to look at the results of 
that and we haven't at this stage reported on that in this 
preliminary work we have done.
    But we have seen that there have been several activities 
that have been undertaken by the U.S. and some of our foreign 
NGOs in terms of political party strengthening, election 
watching, voter education--things of that nature.
    Mr. Yoho. Okay. With the al-Sisi government are you seeing 
an increase in their economic engine? Is it becoming more 
productive?
    Mr. Johnson. We will be looking into that issue as a part 
of the broader----
    Mr. Yoho. But right now have you seen any change?
    Mr. Johnson. Our work basically was done prior to his 
election.
    Mr. Yoho. Okay. But has there been a change in the last, 
say, 2 years?
    Mr. Johnson. There has been----
    Mr. Yoho. As far as--unemployment, has that gotten better?
    Mr. Johnson. All indication from the previous information I 
have seen is that it has not gotten as far as we would hope for 
it to get as well as the Egyptian people. But, again, they 
welcome the U.S. support in helping it to move forward.
    Mr. Yoho. All right. How much foreign aid does China give 
to Egypt?
    Mr. Johnson. I am not aware of that.
    Mr. Yoho. Do you see a presence of them over there?
    Mr. Johnson. We did not run into any Chinese Government 
officials while we were there.
    Mr. Yoho. Okay. I know they--China is going around and they 
are investing in infrastructures in countries and then they 
become great trading partners. I would like to see us do more 
of that instead of trying to tell them how to run their 
country.
    I know there is a tradeoff there that we are giving foreign 
aid that they should follow some guidelines but I think we need 
to kind of refocus and do a paradigm shift on how we handle our 
foreign aid and I would like to focus on trade and not aid so 
that we build an economic engine that we become good trading 
partners and in doing so the Egyptian people will have an 
economy that is growing and they will have jobs and they will 
handle a lot of their own problems on their own. Would you 
think that is a great way to go?
    Mr. Johnson. Once again, the policy decisions we leave up 
to the policy makers. But if that is something you would wish 
for GAO to look into down the road, have our trade folks----
    Mr. Yoho. Absolutely. I sure would. I appreciate your time. 
Madam Chair, I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Dr. Yoho. Thank you, 
Mr. Johnson. I enjoyed having you appear before our 
subcommittee again and I know that it won't be the last time. 
Thank you very much for being with us.
    Mr. Johnson. I appreciate that. Thank you.
    Ms. Ros-Lehtinen. And I will give time for the second panel 
to set up. That will be Mr. Dunne, Mr. LaHood, Mr. Butler and 
Ms. Jaafar.
    Thank you very much for being with us. For our second 
panel, we welcome back Mr. Charles Dunne, who is the director 
of Middle East and North Africa programs at Freedom House. 
Prior to joining Freedom House, he spent 24 years in the 
Foreign Service serving throughout the world including Cairo 
and Jerusalem.
    Mr. Dunne has had a distinguished career in public service, 
serving as director for Iraq at the National Security Council, 
as a foreign policy advisor at the Joint Staff in the Pentagon 
and as a member of the Secretary of State's policy planning 
staff. Thank you, Mr. Dunne.
    And then we welcome Mr. Sam LaHood, who joined the 
International Republican Institute, IRI, in August 2010 and 
relocated to Cairo, Egypt to be the country director for the 
IRI Egypt program.
    While there, Mr. LaHood witnessed the January 25, 2011 
revolution and helped build the IRI Egypt program into one of 
the institute's largest programs. Mr. LaHood departed Cairo in 
March 2012, taking an assignment with the IRI Asia division and 
he currently serves as program office for Cambodia and 
Indonesia. It is a pleasure to see you, Mr. LaHood.
    Next, we have Mr. Patrick Butler, who is the vice president 
for programs at the International Center for Journalists where 
he oversees the development and execution of ICFJ programs and 
supervises program personnel in addition to conducting training 
himself.
    He was previously the program director and director of 
training at the International Center for Journalists. We 
welcome you, Mr. Butler.
    And our last presenter will be Ms. Lila Jaafar, who is the 
senior program manager with the National Democratic Institute, 
focusing on the Middle East and North Africa region.
    She has more than 10 years of experience developing and 
implementing programs to strengthen political parties, civil 
society, electoral processes and the political participation of 
women and youth throughout the Arab world. Ms. Jaafar lived in 
the Middle East for the past 20 years and from 2007 to 2011 
throughout the January 25 revolution she served as NDI's 
resident representative in Cairo.
    We are so pleased to have a star group of panelists today 
and we look forward to your testimony. Thank you for everything 
that you do to promote democracy and freedom worldwide, and we 
will begin with you, Mr. Dunne, and your written statements 
will be made a part of the record. Feel free to summarize. 
Thank you.

STATEMENT OF MR. CHARLES DUNNE, DIRECTOR, MIDDLE EAST AND NORTH 
                 AFRICA PROGRAMS, FREEDOM HOUSE

    Mr. Dunne. Thank you very much, Madam Chairwoman, and 
Ranking Member Deutch and other members of the committee. It is 
an honor to appear before you once again to discuss the human 
rights situation in Egypt and the cost to human rights worker 
of the so-called NGO foreign funding case.
    And I really want to thank you for your continued interest 
in this issue. Given the chaos and tragedy that is going on 
elsewhere in the world today, your attention is particularly 
welcome and very much appreciated. And you are right--this 
issue, the issue of the NGO case--is very important in Egypt.
    Why? Should Egypt succeed as a democracy this will bolster 
hopes for a stable Middle East. Such a success by example and 
in fact would advance the interests of the United States and 
many others in peaceful and effective government in a very 
rough part of the world.
    Now, NGOs play an important role in this. They are vital 
monitors of politics, enablers of social reform and watchdogs 
against the scourges of torture, corruption and other assorted 
handmaidens of repression.
    The case against them in Egypt has wreaked havoc on their 
ability to do this and to promote human rights and the rule of 
law in Egypt--many of these efforts generously funded by the 
United States Government.
    Remains of the former regime in Egypt never really went 
away and they worked from the first months of the 2011 
revolution against Hosni Mubarak to stage a comeback. In my 
view, there is no democratic transition in Egypt today.
    On the contrary, it is the reverse. It is a transition back 
to an autocracy that would make the Mubarak government look 
liberal by comparison. Now, the NGO case was a tactical 
maneuver in the grand scheme of Egyptian politics.
    I believe it was intended to do a few things--first of all, 
to put a scare into the United States about supporting civil 
society and the mission of civil society.
    It was intended to frighten domestic Egyptian NGOs, which 
number in the tens of thousands, from doing work anything 
remotely related to politics, democracy promotion, human rights 
and the whole family of issues that we think of as promoting 
freedom.
    Freedom House was subjected to this push back precisely 
because our programs were effective. They engaged and empowered 
private citizens who worked for and felt they deserved better 
government and basic civic rights. Now, this case has hurt 
families and it has hurt many friends of ours.
    Freedom House was forced to cancel grants to several 
Egyptian NGOs after our work was banned in the country about a 
year ago. Four of our employees were forced to flee for fear of 
lengthy jail sentences.
    One has received political asylum in America. Another is in 
the process of applying for political asylum, and among them 
they have five young children from whom they are effectively 
exiled.
    I am lucky. I was not at the trial. I was not in the cage 
during this spurious proceeding. But I do have to travel 
wherever I go with a letter from Interpol attesting to the 
political nature of the charges and a letter which effectively 
denies Egypt's request for an international arrest warrant--a 
red notice--for us.
    On two separate occasions I have been detained and then 
once deported from an Arab country because of these charges. 
Both of those visits, by the way, were on work funded by the 
U.S. Government.
    I have to check with the U.S. Embassy wherever I go in the 
region before I travel to ensure that I won't be arrested at 
the airport. Now, Freedom House's Egyptian democracy compass 
has tracked political developments in the country for the last 
year.
    On practically every front Egypt has regressed. Some 
members of the committee mentioned the more than 16,000 people 
arrested. There are estimates that have appeared in the 
Egyptian press of as many as 41,000 people who have been 
arrested since the coup and that says nothing of the many who 
have been killed--at least 2,500 in protests against the 
government.
    Now, if the United States is serious about supporting civil 
society human rights, the rule of law and a real democratic 
transition in Egypt, in my view it should do the following 
things.
    First, the United States should insist on pardons for all 
those convicted in the NGO case. U.S. taxpayer money should not 
be used to subsidize a government that has destroyed American 
democracy promotion programs and sentenced U.S. citizens to 
jail terms for trying to carry them out.
    U.S. should insist on its right guaranteed under 
international compacts to freely associate with and fund NGOs.
    Second, I believe the United States should reevaluate its 
basic relationship with Egypt including military aid and 
consider shifting most if not all of that to educational and 
economic support programs.
    And third, the U.S. must publically call out human rights 
abuses so as to encourage our friends in civil society and it 
must tell the Egyptian Government that we are not willing to 
continue business as usual without fundamentally relooking at 
what our relationship is.
    With that, I thank you and I am happy to take any of your 
questions.
    [The prepared statement of Mr. Dunne follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Very eloquent. Thank you very much. We 
appreciate all the work that Freedom House does.
    Mr. LaHood.

  STATEMENT OF MR. SAM LAHOOD (FORMER EGYPT COUNTRY DIRECTOR, 
              INTERNATIONAL REPUBLICAN INSTITUTE)

    Mr. LaHood. Thank you, ma'am. Chairman Ros-Lehtinen, 
Ranking Member Deutch, members of the committee, thank you and 
thanks to all the Members of Congress who have supported the 
nongovernmental organizations and our staff who have been 
caught up in Egypt's crackdown on civil society.
    Chairman Ros-Lehtinen, I want to thank you personally for 
the unwavering interest and support you have shown to myself 
and my colleagues at this table. You have appropriately focused 
this hearing on the struggles for civil society in Egypt and 
what a struggle it is.
    We are living proof of that struggle. On June 4th of last 
year, I was convicted by an Egyptian court to 5 years in prison 
in Egypt with hard labor for working to advance democracy as 
part of a U.S. Government sponsored policy and program.
    We here were found guilty in a trial that was very 
obviously politically motivated and the result was preordained 
in a bogus trial. It was part of a broader attempt to stifle 
and intimidate Egyptian civil society emboldened by events that 
began on January 25th of 2011.
    We, the convicted NGO staff, were entangled in an 
intergovernmental dispute between the United States and Egypt. 
We were carrying out U.S. policy and look at the price we paid. 
This has affected our personal and professional lives 
profoundly. Since our conviction last June, the full 
implications of how the verdicts affect us are still emerging.
    Under Egyptian law, I am a felon. It is unclear how that 
applies in the United States so I need to read the fine print 
when applying for a loan or sign a rental agreement, visa or 
job application.
    In applying for life insurance, my broker believed he was 
obligated to include my conviction in his application but he 
was concerned about the ramifications of providing detailed 
information about my verdict to the company for fear that it 
might enter into my permanent record.
    I am still waiting for the Virginia Board of Elections to 
tell me whether I am eligible to vote. For a lawyer to be 
admitted to the Bar, to be a stockbroker, real estate agent, 
teacher or sell insurance you need to have a clean record, as 
you know.
    Every time I fill out an application or a questionnaire I 
will be on the lookout for the question, ``Have you ever been 
convicted of a crime?'' And I will need to think very carefully 
about my answer.
    As Charles mentioned, our ability to travel internationally 
is another question mark that hangs over our heads. Clearly, I 
cannot travel to Egypt but numerous other places around the 
world how confident can I be that I will not run into legal 
trouble and be put into proceedings for possible extradition to 
Egypt and how do I assess that risk? But I know that my 
personal hardship pales in comparison to the hardship of 
others.
    I never faced the full humiliation of standing in a cage in 
an Egyptian courtroom nor did I spend even 1 day in an 
overcrowded Egyptian jail cell. Some of my convicted Egyptian 
colleagues have no option to return home without facing jail 
time.
    They are now refugees. Others have lost personal 
relationships and work opportunities. All of us have been 
impacted and had the course of our careers and lives altered.
    It seems crazy to think that for working to advance 
democracy in Egypt I would be rewarded with a jail term. But 
look no further than the three journalists from Al Jazeera who 
are currently serving 7- and 10-year jail terms.
    Though I don't know Peter Greste, Mohamad Fahmy or Baher 
Mohamed well, I know that they were equally innocent of the 
ludicrous charges that they were put on trial for as those of 
us here today were.
    A revolution began in 2001 which broke the barrier of fear 
among civil society activists in Egypt but their activities are 
now being increasingly stifled by a regime that is attempting 
to put the genie back in the bottle. Change is not always 
linear but it is always hard and it is always a struggle, as 
you know. IRI continues to partner with those Egyptians who 
want to build a more democratic and open society. We hope that 
the Egyptian Government will soon make that possible.
    The same court that made a mockery of justice unfortunately 
not only has the power to punish Americans in their country but 
unless action is taken in our country too we--do we really want 
to tell authoritarian governments that they have the power to 
affect the lives and prospects of innocent Americans?
    The U.S. Congress can statutorily affirm that the 
convictions of the 43 NGO staff are not recognized under U.S. 
law and were politically motivated. This would remove the legal 
question mark over our heads and the frustration of trying to 
determine under 50 separate state jurisdictions whether the 
convictions affect our ability to conduct routine everyday 
business.
    U.S. Government should not downgrade support for Egyptian 
or international civil society organizations like those here 
today. To do so would abandon our partners in Egypt as well as 
the values for which the United States stands.
    There are many Egyptians who continue to be arrested and 
thrown in jail on trumped up charges. I would urge the United 
States continues to support those committed to advocating for 
freedom and democracy.
    Thank you very much.
    [The prepared statement of Mr. LaHood follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Powerful testimony. 
We thank you very much for sharing it with us.
    Mr. Butler.

  STATEMENT OF MR. PATRICK BUTLER, VICE PRESIDENT, PROGRAMS, 
              INTERNATIONAL CENTER FOR JOURNALISTS

    Mr. Butler. Chairman Ros-Lehtinen, Ranking Member Deutch 
and other distinguished members of the committee, thank you for 
allowing me and my colleagues the opportunity to testify before 
you today.
    As you know, more than a year ago I and 42 other NGO 
workers were convicted in an Egyptian court for working on 
programs designed to build democracy, monitor elections and 
train political parties and journalists. We were given 
sentences ranging from 1 to 5 years in prison.
    After an initial stir and expressions of outrage from the 
State Department and Members of Congress, the case has largely 
faded away. Most people who knew about the case probably think 
it was resolved long ago.
    That is why we are especially grateful to you for having us 
here today. More than a year later, nothing has changed except 
the lives of the convicts, mostly for the worse. Most Egyptians 
convicted in the case are in exile, often separated from their 
families, their immigration status in limbo, unable to earn a 
living.
    For Americans and other non-Egyptians, the convictions have 
prevented international travel or thrown up obstacles in 
everything from applying for jobs or loans or getting a 
security clearance. The case was an early indication of changes 
to come in Egypt.
    We were the canaries in the coal mine. In the past year, 
Egypt has seen a brutal crackdown on opposition groups, civil 
society workers and journalists including the conviction last 
month of three Al Jazeera journalists who dared to interview 
members of banned opposition.
    Everything the Egyptian leadership is now doing to 
intimidate the country into acquiescence could have been 
foretold by the verdicts last year against us. I was one of 
five people working for the International Center for 
Journalists who were convicted in the case.
    The others were Americans Michelle Betz and Natasha Tynes 
and our Egyptian colleagues, Yehia Ghanem and Islam Shafiq. 
Michelle, Natasha and I were not in Egypt when the charges were 
filed but we were immediately labeled fugitives from justice.
    Yehia, who is with me today, and Islam were in Egypt and 
they attended every hearing in the stifling hot cage, sometimes 
sharing the cramped space with murderers and rapists. Like 
other NGOs, we brought the Egyptians out of Egypt before the 
verdict was announced and they have not returned home since.
    For me the conviction has been an inconvenience. I probably 
will never go back to Egypt and I may not be able to travel 
elsewhere in the region either for fear of being extradited.
    I know I will still have a job even if I can't travel to 
the Middle East but Michelle and Natasha are freelance media 
development contractors and when they can't travel to the 
region they lose work. The convictions have seriously affected 
their livelihoods.
    For our Egyptian colleagues and friends, though, the 
convictions are nothing short of catastrophic. Yehia Ghanem, an 
esteemed Egyptian foreign correspondent and editor with nearly 
30 years of experience, is in perhaps the worst situation of 
any of the convicts.
    Because of his seniority, his 2-year sentence was not 
suspended as it was for many other Egyptians. That means he 
will go to jail if he returns to Egypt. Yehia has not seen his 
wife and three children or his ailing mother in more than a 
year.
    His distinguished career in Egypt is over, his pension 
lost. ICFJ helped him get a fellowship as a journalist in 
residence at the City University of New York for the last 
academic year but the fellowship was not enough to permit him 
to support his family in New York.
    While he has been here, his family members have continued 
to suffer harassment in Cairo including three raids on their 
home by security officials seeking Yehia even though they knew 
he is in the United States.
    The most recent raid happened Sunday night. The raids 
against--these raids and one against the family members of 
Nancy Okail, another Egyptian defendant, proved that while the 
U.S. Government seems to have forgotten the case the Egyptian 
Government certainly has not.
    Yehia is now looking for a job and hoping to bring his 
family to the United States. His greatest hope is to receive a 
green card so that he has the security to work either in the 
United States or in a Middle Eastern country that will not 
extradite him to Egypt.
    So far, we have not been able to get him a green card. 
Islam Shafiq has brought his wife to the United States and they 
now have a young son. They are applying for asylum with Islam's 
family continuing to receive threats against him on a regular 
basis.
    Islam's father died while he was exile. He was not able to 
return home for the funeral. Every one of the convicted NGO 
workers--Americans, Egyptians and citizens of other countries--
has a story like this to tell. The case has ruined many 
people's lives and for what?
    In our case for trying to help Egyptian journalists do a 
better job of reporting on issues that matter to their 
audiences. The verdict, as we all know, was a sham based 
entirely on political calculations and not at all on the 
evidence presented in the case.
    But the greatest tragedy of this case is not its effect on 
individuals like Yehai Ghanem or any of the four of us before 
you today. The greatest tragedy is what this case has meant for 
the people of Egypt.
    The country's authoritarian government learned the 
consequences of its prosecution of Americans and Egyptians 
working together to improve their society. Nothing. There were 
no consequences.
    Now, with political opponents, human rights workers and 
journalists regularly jailed and most of Egyptian society 
scared into silence, we are seeing how Egypt is putting into 
practice what it learned from our case.
    In closing, I urge you to do all you can for our Egyptian 
colleagues especially. They are suffering the most from this 
case. When the charges were filed, U.S. Government officials 
and Members of Congress visited them and promised to do all 
they could for them.
    Many feel that those promises have been forgotten. Help us 
get them green cards so that they can have a stable life and 
support their families in the U.S. They paid a price for 
working on U.S. Government-funded programs and they deserve our 
thanks.
    Again, my sincere thanks to this committee for having us 
here today and keeping this case alive.
    [The prepared statement of Mr. Butler follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Butler, and 
thank you for always pointing out the other folks who are 
suffering so much. Thank you. That says a lot about each and 
every one of you.
    Ms. Jaafar, we look forward to your testimony.

STATEMENT OF MS. LILA JAAFAR, SENIOR PROGRAM MANAGER, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Ms. Jaafar. Madam Chairwoman, Ranking Member Deutch, thank 
you for this opportunity to testify today about the criminal 
convictions handed down to me and 14 other employees of the 
National Democratic Institute who were put on trial in Egypt.
    I also wanted to thank you, Madam Chairwoman, and many of 
your colleagues for the continued statements of support that 
you have issued for those of us who must now carry the burden 
of these unjust convictions and I also wish to thank the many 
Egyptian civic organizations and political leaders who have 
voiced their statements of support, especially those for whom 
public statements resulted in charges of their own.
    On June 4th, 2013, I woke to find that I had been found 
guilty in absentia by an Egyptian court. The inflammatory 
rhetoric in that verdict contradicts the reality of our 
programs which included election observation approved by the 
Government of Egypt as well as nonpartisan voter education, 
civil society development, women's candidate training and long-
term political party strengthening for more than 50 registered 
political parties.
    There can be little doubt that the goal of this verdict was 
to reduce or eliminate international support for independent 
civil society in Egypt.
    This unjust verdict has been incredibly disruptive. Some 
colleagues have lost jobs because the country in which they 
were assigned to work denied them entry or their potential 
employer feared that the verdict would impact their ability to 
do the job.
    Others have been detained by police in foreign countries 
while traveling due to outdated red notices issued by Egypt 
through Interpol. My initial feelings of shock and dismay 
quickly gave rise to concerns about my career and family. 
Although I grew up in California, the daughter of Middle 
Eastern and European immigrants, I went to a university in 
Lebanon and worked in the Middle East for the past 10 years, 7 
of them in Egypt. I built a life there.
    When charges were filed against us and we were told to 
leave the country there was no time to bid goodbye to that 
life, the Egyptians I worked with and the many participants I 
had come to count as friends. Now knowing I may never return 
still creates a deep ache in my heart.
    This verdict separates me from my family as well. As you 
see, my parents retired in the Middle East where several family 
members remain. Others convicted in the same NGO trial are 
separated from children, parents and immediate family, and we 
are only 43 stories.
    International human rights groups estimate that somewhere 
between 16,000 and 41,000 individuals have been imprisoned in 
Egypt since June 2013 when our verdicts were handed down. 
Thousands more have lost their lives. Countless families are 
affected.
    When our offices were raided, I remember NDI's president, 
Ken Pollack, saying it was possible we were like canaries in a 
coal mine--a warning of even worse things to come.
    Now the Government of Egypt is reportedly considering a new 
draft NGO law that is even more restrictive than the one under 
which we were convicted. While not yet final, it contains 
language that requires Egyptian civil society groups to receive 
prior approval from the government before conducting domestic 
fund-raising efforts or accepting funding from international 
donors.
    The draft law also prohibits any public opinion research 
and cooperation with a foreign organization without prior 
notification of the Ministry of Social Solidarity. Those who 
are deemed to have violated this provision risk 1 year 
imprisonment and a fine of 100,000 Egyptian pounds.
    International NGOs like ours would still be subject to the 
prior approval of multiple government ministries and constant 
monitoring. That registration could be terminated at any time 
for any activity that the government deemed to threaten 
national unity.
    Our verdict, the raids on the NGOs, the trials of 
journalists, the protest law and the proposed NGO law 
contradict the promises of freedom of expression and 
association and a free press, which are guaranteed under the 
2014 Egyptian constitution.
    There is still a great hunger for democracy in Egypt, 
especially among youth who now recognize it will take more than 
street demonstrations to create a more pluralistic and 
democratic system.
    Although we have not had a presence in Egypt for more than 
2 years, we continue to review emails almost daily with request 
for assistance. More than 48,000 copies of NDI's publications 
have been downloaded in Egypt since we left the country and 
more than 120,000 unique visitors have used NDI's Arabic Web 
site.
    Democratic activists in Egypt do exist and they are working 
for genuine political reform. They deserve international 
support. With all its human faults and failings, the democratic 
process is an ideal worth upholding and very much in U.S. 
strategic interests.
    The fact that this committee is having this hearing and 
that I was invited to share my story speaks volumes about how 
our system values individual citizens. It is my hope that one 
day every Egyptian knows what this feels like and that I will 
be able to return to Egypt and share in their joy.
    [The prepared statement of Ms. Jaafar follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Ros-Lehtinen. Thank you so very much. Thank you to each 
and every one of you for the work that you do, the work that 
your institutions do and it is very uplifting to hear these 
shocking stories.
    And one of the main reasons that we are holding this 
hearing is to hear about your experiences and what it has been 
like to those--for those affected by last year's trial. People 
just assume that everything is fine and that isn't the case. 
But we move on.
    The story is the headline of the day and until the next 
paper comes and it is just yesterday's news. We have heard 
about the human toll that you so dramatically presented to us 
that it has taken both on your work and on your personal lives 
and it is very heartening to hear how concerned you are about 
your Egyptian colleagues.
    And we will continue to push for your pardon, and some of 
you had said in their testimony about this canary in the coal 
mine. You and the other 42 NGO workers at your trial was a sign 
of worse things to come and earlier this month we saw al-Sisi 
say that he regretted the conviction of the Al Jazeera 
journalists but he said that only after a significant 
expression of international outrage.
    Yet in your testimony, Mr. Dunne, you worry that in Egypt 
today there is a transition back to an autocratic form of 
government that would make Mubarak seem liberal in comparison. 
Do you believe that under al-Sisi there is a chance that civil 
society conditions will improve or do you think that it could 
be even worse than under Mubarak?
    Mr. Dunne. Madam Chairwoman, I do believe that it could be 
significantly worse under President al-Sisi. What we have heard 
from Egyptian interlocutors, diplomats and so on for months now 
is just wait until General al-Sisi is elected as President and 
then you will see a liberalization in the human rights 
situation.
    Not only has that not happened, it has gone backwards. Some 
of us have talked about the numbers of people who have been 
imprisoned since the coup last year and some of us has talked 
about the issues with the NGO law including an exception for 
shutting people down and prohibiting activities for public 
morals charges, which can be interpreted any way you like, and 
I think it will be.
    I mean, clearly, it is moving in a more restrictive 
direction for the kind of work that we do. The other thing that 
this new law would do in fact is limit organizations to doing 
social welfare and development work. In other words, if you are 
baking bread or, you know, helping village enterprises, which 
is all good, you are fine. But if you are doing the kind of 
work that all of our organizations are doing you are not fine.
    So I don't see a glimmer of home in the political 
direction, certainly in the direction of NGOs right now.
    Ms. Ros-Lehtinen. Thank you. Now, Egypt, obviously, is a 
strategic country for U.S. assets militarily and politically 
but we have seen so much turmoil and so many changes in Egypt 
that I think we need to reexamine our relationship with Egypt. 
I know that you had talked about conditioning the aid, move it 
from the military to education.
    What are your thoughts for the other three folks? Do you 
think that the United States should condition our military aid 
to Egypt until we get pardons for you or that we see greater 
respect for human rights or civil society and the rule of law?
    And also, is there anything that you believe that our 
Government can or should do to improve this draconian new NGO 
law that many fear will be the death knell for independent 
organizations in Egypt?
    What should we be doing to help foster civil society in 
Egypt and continue the work of political reform?
    And lastly, the administration--you know, when we were 
lining up witnesses we wanted to find out who in the 
administration is in charge of your cases. We couldn't find a 
name. We do not know that there is a person tasked with your 
case and I worry about that.
    Please describe your experiences with the administration. 
What more do they need to do to step up?
    Mr. LaHood. If I could just start. The first thing I would 
say is from my standpoint when I was in Egypt I am very 
appreciative of everything the Obama administration did to 
secure Lila and I's release when we were actually in Egypt when 
we were in the Embassy.
    And so from my standpoint if that pressure hadn't been put 
on them by the administration I think I would be in jail right 
now, and it is an odd thing to say but I believe it is true and 
I look at the Al Jazeera journalists and I know it is true. So 
I am very complimentary of everything the Obama administration 
did, certainly, you know, at that time.
    But, you know, from my standpoint I would look at, you 
know, I think the U.S. Government should assess its policy 
toward Egypt, given all the changing landscape, as you noted, 
and I think the government should remain focused on the long-
term--on our long-term goals and values that led us to support 
people around the world who bravely stand up to advance freedom 
and human rights.
    I don't think the United States Government should downgrade 
support for Egyptian or international civil society 
organizations because of what has happened in Egypt. I think to 
do so abandons our values. And I very much appreciate your 
point about who is in charge of our case within the U.S. 
Government.
    I go to events once in a while in Egypt just for fun to 
harass Egyptian officials who come here and I run into U.S. 
officials and I ask them all the time, you know, who is in 
charge of our case and the answer is well, there is a lot of 
people working on it, and I would say but if there was one 
person who would it be or what office would it be, and the 
answer is a lot of people are working on it.
    We don't need somebody working on it. We need somebody 
working to find a solution for it, not just following it, not 
just tracking it. And so that is one thing that I would 
advocate that I would love to know who is in charge of it.
    And the other point I would just make that I have 
complained about to anybody who will listen is the U.S. 
Government has been very good at keeping the institutes 
informed of what is going on as it relates to our case.
    But these are individual charges that we carry forward. I 
leave IRI, I am still a convicted felon. It doesn't matter that 
I work or don't work for IRI. And so that has been one of my 
gripes that the U.S. Government has done, in my opinion, a poor 
job of keeping us as individuals informed, and as Patrick sort 
of alluded to, you know, for some of their employees who were 
contractors who weren't strongly affiliated with their 
institute they have tried to move on with their lives and they 
have this cloud that still hangs over their head as 
individuals.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Butler, Ms. Jaafar.
    Mr. Butler. Yes. You know, in response to your first 
question, ICFJ is a nonpartisan organization that is strictly 
devoted to improving journalism around the world and we try to 
remain independent of advising the U.S. Government on what it 
should do.
    So I can't really respond in terms of what I think the U.S. 
Government should do in terms of cutting off aid or not cutting 
off aid. But I will say as I said in my remarks that I don't 
think the response should be nothing and it feels like that has 
been the response.
    In terms of the point that you made again I will back up 
what Sam said. You are absolutely right in terms of having a 
point person at the State Department. We don't have that.
    I think sometimes that if we don't as the four 
organizations communicate among ourselves I find out much more 
from these guys sometimes than I do from, you know, people at 
State because--in part because we don't have that one person to 
go to.
    I will say that they have been very helpful in a number of 
things such as working with, you know, to get Interpol to give 
us the letters that we take whenever we travel. That was 
definitely the State Department pushing for us to get those 
letters that say that these are not valid charges.
    It took a while but we got them. We also have a letter from 
the State Department that says that it does not consider these 
charges to be valid and in response to some of the things that 
Sam talked about in terms of applying for jobs, loans, security 
clearances and things like that, this letter should be, as we 
understand it, reason to be able to say no, we were not 
convicted of a felony.
    But, as Sam said, we never really know whether somebody is 
going to then Google us and find out that we were. So I think 
you are absolutely right, we would like to have more, you know, 
one focused person at State that we can go to when we have 
requests like how are we going to help our Egyptian colleagues 
with their immigration status, you know, things like that--to 
have one person to go to.
    I think right now, because we have different parts of State 
funding our different projects, we go to the people who funded 
us and that may be very different people. So it would be very, 
very helpful to have that.
    Ms. Jaafar. Madam Chairwoman, I would like to, you know, 
just agree with Sam and what he said. I don't think I would be 
here today before you if the administration did not help us and 
support us during the most difficult times of this journey.
    I also wanted to say that NDI doesn't take a position on 
military assistance. However, I think that it is really 
important that assistance for democracy in governance continue.
    But at the same time it is important that the civil society 
organizations have this space to operate and that is what is so 
concerning about the draft NGO law. If it is passed in its 
form--in its current form it will be among the most restrictive 
in the world.
    So I would just ask that we keep sight--keep our eye on 
that law.
    Ms. Ros-Lehtinen. Well, thank you very much. You are an 
inspiration to us all and I apologize the lack of attendance. 
It is because we have so many--so many subcommittees and but 
you--we will make sure that we broadcast your words far and 
wide. Thank you so much. It is a pleasure to be with you.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman, and thanks to all of 
you for being here and sharing your very personal and very 
powerful stories. I am--look, the point that a number of you 
raised, I am supremely confident that after this hearing it 
will be easier for you to identify someone at the State 
Department to talk to about the cases.
    I trust that will be a positive and hopefully simple result 
to come from this hearing. I would actually like to broaden the 
discussion a bit beyond your personal situations to the work 
that you advocate for and talk about not just what the 
government--administration and Congress--have done with respect 
to your convictions but where the issues that you care about--
where you think these issues that you care about place on our 
agenda, on both ends of Pennsylvania Avenue.
    Human rights, free expression, women's rights, building of 
civil society--do you feel the support for--not just for you 
but for the work that you do and if not what more can be done?
    What more would you like to hear and how do we ensure--I 
guess where I am--the point of my question is how do we ensure 
that these issues remain of vital importance to all of us as we 
tackle the myriad of challenges around the world?
    Mr. Dunne.
    Mr. Dunne. Thank you very much. I will be happy to take the 
first crack at this. I think there has been the start of a pull 
back from supporting many of these issues not only by the 
United States but by European Governments as well who see at 
least in the Middle East that this is getting really hard to 
do.
    I think all of the issues that you described, Congressman, 
are vitally important as a complex of things that we need to 
support as a country along with the Europeans as not just a 
nice thing to do if we have the time and the money to do it but 
as a vital component of our security interests in Egypt and 
other countries, especially in the Middle East but also 
elsewhere.
    But you are also seeing a lot of authoritarian push back. 
We have seen that in Russia with the AID mission having to 
leave.
    We are seeing, you know, a Gulf Arab-led push back against 
democracy and human rights in Egypt and I don't see kind of an 
integrate policy that supports both security interests which 
are vital including the military relationship with Egypt but 
that also include all of these other issues which lead to 
better governance and social stability over the long term.
    I think that more funding needs to be devoted to this but 
most importantly a comprehensive strategy has to be devised by 
our Government in concert with the Europeans and other like-
minded governments to advance this.
    Mr. Deutch. I appreciate that. Mr. LaHood, why do--why 
should human rights matter in our approach to the world?
    Mr. LaHood. Well, you ask a great question. I am going to 
just try and take a small bite at it and just--from my 
standpoint, we have a strong focus on security and stability 
and I think--I think that is valid.
    I think that makes great sense. But I think you look at the 
Middle East today, you look at what has happened in Egypt and I 
think you see that that stability was a veneer, and it was 
great while it lasted until it completely falls apart. Doesn't 
seem to me that it is sustainable.
    I just look at Egypt--you know, I was in Egypt on January 
25th during the revolution and I just always look back and 
think whatever the plan was on January 24th of 2011 with U.S. 
and Egypt it wasn't a great plan.
    You look at Egypt the way it was, what the great percentage 
of people who were illiterate, the great percentage of people 
who lived on less than $2 a day--whatever the old plan was that 
wasn't a very good one.
    And I think the veneer of stability has blown up in our 
faces and I just don't see the path that Egypt's on now as one 
that is going to lead to long-term stability and that is the 
one point I would make.
    Mr. Deutch. Thanks. Mr. Butler.
    Mr. Butler. Yes. Well, obviously, the area that most 
concerns us at the International Center for Journalists is 
freedom of expression, the rights of journalists to report 
freely about what is going on and that has gotten a lot of 
attention in Egypt lately with the convictions of the Al 
Jazeera journalists.
    But I wanted to point out that while that case has gotten a 
lot of attention not as much attention is paid to all the other 
journalists who are in jail in Egypt. There are, according to 
the Committee to Protect Journalists, 14 journalists in prison 
in Egypt.
    It is one of the highest rates in the world and those are 
not necessarily high profile international journalists working 
for major international networks. Most of them are local 
journalists who are, you know, paying the price for trying to 
report independently.
    We often say that there--and I guess getting to your 
question, you know, one point would be why should we pay 
attention to this anymore. You know, have we--have we gotten to 
a point where it is not going to matter anyway, given what has 
happened in Egypt.
    And I think we often say that there is no difference now 
between, you know, what we are seeing now under Sisi and what 
we saw under Mubarak and that is true to an extent.
    But there is one important difference, which is that the 
whole media landscape has changed and, you know, back in 
Mubarak's day there was only the official media and now there--
we have, you know, cable networks like Al Jazeera but we also 
have social networks and people are--you know, the genie is out 
of the bottle and so people have gotten used to being able to 
express themselves to do that kind of thing and you can't 
completely shut that off the way Mubarak could shut off all 
independent or, really, any kind of independent reporting.
    So what we do is try to focus often in very repressive 
societies on other ways of getting information to the public 
and that can still happen in Egypt. And, you know, obviously, 
we can't work in Egypt but until this case is resolved but 
very, you know, strongly echoing what Charles and Sam have said 
about the need to continue this kind of work, especially in our 
area of freedom of expression and journalism.
    Mr. Deutch. Thanks. Madam Chairman, do we have time for Ms. 
Jaafar to answer?
    Ms. Jaafar. Mr. Deutch, I think it is extremely important 
to continue to work on human rights and democracy in governance 
because we are looking at long-term stability. I don't think 
there can be any long-term stability without the space for 
people to express themselves, for them to participate in the 
political process.
    I think even for economic development as well this is 
directly linked. How can there be foreign direct investment and 
progress in the economy of Egypt when there is a crackdown on 
civil society and human rights violations?
    So I think it is something that absolutely in our strategic 
interest to continue to keep an eye on.
    Mr. Deutch. I agree with you completely and I applaud the 
four of you for your dedication in this issue and the immense 
difficulty that you find yourselves in still as a result of it, 
and we are really grateful for your appearance here today. 
Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. Appreciate you all being 
here. Correct me if I am wrong but I think I have heard you all 
say that you feel the Egyptian Government is moving away from a 
democracy type to a authoritarian type. Is that pretty much the 
consensus of all four of you? Ms. Jaafar.
    Mr. Dunne. Yes, sir. It certainly is mine.
    Mr. Yoho. Okay. Why is that? Mr. Dunne, go ahead.
    Mr. Dunne. Okay. Thank you very much, sir. Look, even if 
you look at the circumstances surrounding the elections in 
which the state media were all bent toward General al-Sisi's 
election complaint by his chief opponent were dismissed out of 
hand by the electoral commission including charges of 
intimidation at the polling places.
    That is an indication that the election while, you know, 
had the form of a free and fair election wasn't really free and 
fair. It was a tightly restricted political space. But we see 
the restrictions on journalists.
    I mean, Patrick is absolutely right that people--there are 
more outlets now but we have many journalists in prison, others 
who are being intimidated and others who are self-censoring 
because of, you know, hints from the government. We have had 
political violence at a level that we haven't seen in Egypt.
    Mr. Yoho. But why do you think it is moving more toward 
authoritarian? Because I agree with Mr. LaHood and Ms. Jaafar 
in that for the last 30 years we have seen a veneer that is 
washing away.
    It is eroding away, and I think we are seeing maybe the 
true nature of what the people in charge actually believe. They 
don't believe in a democracy. They believe that people need to 
ruled through the authoritarian model. Is that what you see?
    Mr. Dunne. That is what I see and while there are, for 
example, some new ostensibly more liberal elements in the new 
constitution the rights guaranteed in that constitution have 
not been followed in practice over the course of the last year 
and it has carved out a space for the military to be absolutely 
unaccountable to civilian authority.
    Mr. Yoho. And I saw that the military has been given more 
authority, and that brings me to a point that I want to bring 
up.
    Do the Egyptian people--number one, what do they want and 
do the Egyptian people know, understand or comprehend the 
meaning or know the depth of what we deem as human rights as we 
understand them as delineated in our Declaration of 
Independence which we hold these truths to be self-evident, 
that all men are created equal and they are endowed by their 
creator with certain unalienable rights, among these life, 
liberty and the pursuit of happiness.
    Our country was founded on these principles. What I see 
over and over again, especially in the Middle East, is we are 
trying to introduce these to a government, not to the people, 
and bring it in from the bottom up instead of the top down 
because what I am seeing is after 30 years or 40 years of the 
veneer saying you have to follow these and they are saying, 
with one hand, okay, we will do that but with the other hand it 
is the repression that we have seen over and over again because 
they don't believe in this. What do the Egyptian people believe 
in?
    Mr. Dunne. I will take a first brief shot at this and then 
turn it over to others. Polling data that I have seen over the 
last 10 years consistently shows that the Egyptians, as well as 
majorities of populations in other Arab countries, believe that 
democracy is the best form of government for them. They have a 
different view of what that might mean.
    Mr. Yoho. I need to stop you there because I often say 
this--a democracy, as Ben Franklin pointed out, is two wolves 
and a sheep deciding what to have for lunch. The sheep always 
loses.
    We are a republic, which protects the rights of the 
minority, and I think we should promote that more instead of 
democracy--this word democracy is, and I know what we are all 
trying to say with that but it is a misnomer because 
democracies don't work real well. Republics work pretty good, 
though.
    Mr. Dunne. Yes. Marwan Muasher, who is the current vice 
president of the Carnegie Endowment, is going back home to 
Jordan to lead a new civil society organization. He just wrote 
a book on pluralism in the Arab world and perhaps that is a 
better way to describe it.
    In other words, exactly what you are saying--the rights of 
minorities whether they are religious minorities, women or 
others need to be protected and respected and that is maybe 
more of what I am trying to say, and I think the population in 
Egypt really more or less agrees with that.
    Right now, undoubtedly, their focus is on security and 
economic success. But the revolution of 2011 was about that as 
well as about better governance and the right of the people to 
be respected in their opinions.
    Mr. Yoho. And I admire them for standing up and doing that. 
Madam Chair, my time is out. I appreciate it. Thank you all 
very much. Good luck to you.
    Ms. Ros-Lehtinen. You are the host of our Florida GOP 
luncheon so you better make that good--some good barbecue.
    Mr. Yoho. You don't want to miss it.
    Ms. Ros-Lehtinen. Get over there and start cooking it.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman. Welcome to our 
panel. Just by way of preface, I want to say that I have heard 
some rationalization and equivocation among some here in 
Congress. I believe that we undermine your cause when we 
rationalize a military coup with a military dictatorship as 
ruthless as this one.
    Mr. Dunne, I think you were making the point to Mr. Yoho 
that this is a whole different magnitude--a whole different 
level of oppression. It is not just another authoritarian 
regime in Egypt and, you know, the crackdown and the slaughter 
of citizens on the streets is a whole new dimension.
    And if we say here well, we didn't like the Muslim 
Brotherhood--I didn't either, but our State Department actually 
said they were elected in a free and fair election. It was 
overthrown by a military junta and if American Congressmen 
think that is okay because of ideological preference then I 
think we undermine everything you all stand for and have worked 
for. And I also think, frankly, without intending to we 
undermine the cause of the NGO personnel we are trying to 
champion.
    We cannot have it both ways. Either we are for democracy or 
we are not, and we need to have clarity about that in this 
body. Otherwise, we put you at risk.
    Having said that, by the way, Mr. LaHood, did I understand 
you to say you were concerned about your voting status in 
Virginia because of a conviction?
    Mr. LaHood. Yes, sir. I moved--I was a resident in Virginia 
before I moved abroad and that is where my voting status is, in 
Arlington, Virginia, and when I moved back to the States last 
year they were getting ready for the primary--for the governor 
primary and I actually looked up.
    The state law in Virginia is a little bit vague. It 
basically says if you are a convicted felon and you have 
completed your sentence you are eligible for reapply to have 
your voting rights.
    I never completed my sentence and the law is a little bit 
vague in that it doesn't delineate where they mean by that. And 
so I actually called the state board of----
    Mr. Connolly. Elections.
    Mr. LaHood [continuing]. Of elections and asked some 
questions. They called me back with some follow-up questions. 
But I never got a clear answer. I am actually----
    Mr. Connolly. Okay.
    Mr. LaHood [continuing]. On the cusp of relocating to 
Maryland where the law is very specific and says if you have 
been convicted in a municipal, state or Federal court, which I 
wasn't, then----
    Mr. Connolly. I was going to offer to help you but if you 
have got the bad taste of moving to Maryland there is no 
helping you.
    Mr. LaHood. Well, my wife is from Baltimore so I don't have 
much choice.
    Mr. Connolly. All right. You are forgiven.
    Mr. LaHood. If I am going to stay in the area it has got to 
be Maryland. So I argued for Virginia.
    Mr. Connolly. Well, if you come to your senses and move 
back to Virginia let me know and I will help.
    Mr. LaHood. I will. But my point is, sir, though that for 
us we face these issues in trying to figure out how this works.
    Mr. Connolly. Yes. Yes. Exactly. Mr.--well, do I understand 
from your testimony that the State Department has not given you 
a point of contact--who do we go to on our cases with respect 
to organizations, Mr.--no?
    Mr. Dunne. Yes, sir. That would certainly seem to be the 
case at present. It used to be that the legal advisor's office 
was highly involved in this and, again, I have to give them 
credit for doing what they did in concert with the Justice 
Department for getting Interpol to vacate their--you know, the 
red----
    Mr. Connolly. Right.
    Mr. Dunne [continuing]. Notice request, which I understand 
if those had been issued and they are routinely issued we would 
have been in serious trouble about our ability to travel 
anywhere outside the United States.
    Having said that, we have not heard from the State 
Department on this case for probably close to a year since the 
convictions and I do think State has moved on from it. And I 
grant that they have quite a few things on their plate right 
now, but it is important to us still.
    Mr. Connolly. Well, it is important to us up here, too. So 
let us work with you and I am appalled to hear that and shame 
on the State Department for not staying on top of this and 
making sure you all have a very clear point of contact who has 
got some authority to try to answer questions and take actions 
when necessary.
    Mr. Dunne, you also talked about the need for an integrated 
policy--you know, understanding the complexity of the 
relationship with Egypt, and I think that is a really good 
point and I guess what strikes me about how this State 
Department and about many of my colleagues here in Congress 
have approached the relationship, frankly, in a very 
compartmentalized way.
    So this issue is over here, but after all, we have got--and 
we do. We have lots of legitimate concerns and needs and 
priorities but if we do that we make it just so much easier for 
the Egyptian Government to do what in fact it has done to you 
and to your organizations. A brief comment before my time runs 
out.
    Mr. Dunne. I would just say I think that with what has 
happened in the NGO case the Egyptian Government thinks it just 
won--it just won this issue and have accomplished what it 
wanted to do, which is what I tried to describe in my 
testimony.
    And I don't, frankly, think that U.S. policy has caught up 
to the new reality in Egypt and there does have to be this 
integrated policy which reconciles our security interests, 
which are very, very real and our diplomatic interests as you 
see Egypt working on Gaza right now but with the need to 
promote better governance, civil society, human rights and the 
rule of law in the country and be very clear about that in 
public, and I have not seen that up to this point.
    Mr. Connolly. If the chair will indulge. Anyone else want 
to comment on that? Yes.
    Mr. LaHood. The one thing I would just say to your point 
is, you know, for the Egyptian Government to be able to 
prosecute our institutes, which are directly funded by the 
Embassy, by the U.S. Government, we were doing exactly what we 
were asked to do by the U.S. Government.
    You look at the--you look at the board of IRI and NDI, not 
to mention Freedom House with John McCain and Madeline 
Albright--that they are able to prosecute us for doing this 
work there and they get away with it, it sends a clear message 
throughout Egypt to everyone that they are going to do whatever 
they want and I think it is horribly damaging.
    Mr. Butler. And I just want to add one thing--that it is 
not just a message to Egypt. It is a message to countries 
around the world and we have seen, for example, in Ecuador, 
which is another country that is not so friendly to the United 
States, that, you know, crackdowns on NGOs there.
    We had a project there where we were intending to work 
there and we have had to pull out of that country in part 
because some of the same things that--using some of the same 
tactics, not necessarily charging but the same kinds of tactics 
against NGOs that we saw in Egypt.
    Ms. Ros-Lehtinen. And Ecuador, if I may interrupt, has 
hired a PR giant--$6.4 million to do PR for them and what they 
do is they charge folks who are opposition leaders with money 
laundering, drug trafficking and they are here working the 
halls of Congress saying that Ecuador--everything is great 
there.
    Mr. Connolly. Madam Chairman, while you were out of the 
room the issue of having a point of contact with the State 
Department came up and we don't have one, and knowing of your 
commitment to this issue and, of course, my own, I wonder if 
you and I might consider a joint letter to the Secretary to 
remedy that situation immediately. Mr. LaHood.
    Mr. LaHood. Just the one other thing that we brought up is 
it is not somebody who is a point of contact but somebody who 
is responsible for helping us resolve this issue.
    Mr. Connolly. Right.
    Mr. LaHood. Just to clarify it.
    Mr. Connolly. No, no. That is my shorthand. But I think I 
did make that clear it had to be someone vested with the 
authority to respond to you and make decisions and point us in 
the right direction when somebody else has the expertise. I 
agree.
    Mr. Cicilline. And a coordinated response.
    Mr. Connolly. A coordinated response. That is right. 
Undoubtedly, the chairman and I will work out that language.
    Ms. Ros-Lehtinen. Thank you. Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chairman.
    Thank you again for your testimony and for being here. You 
know, I think in many ways people do assume when individuals 
were released that sort of everything is fine and I really 
appreciate you sharing with us and with everyone who is 
watching the impact that this has had on you and others and the 
implications it has for the rest of your life.
    And, you know, I know a lot of people toss around the word 
heroes but you are four great American heroes and the 
colleagues you represented in your testimony are as well and we 
are a better world because of what you do and just want to say 
at the outset thank you for your courage and for the work.
    In my tradition we call it (foreign language spoken)--
healing the world, which is what you are doing by building 
civil society and democracy all over the world.
    So I think one of the challenges we face is that the--
almost by definition the places in the world that need your 
work most urgently are the places, of course, where it is 
hardest to do the work just by definition and so, you know, the 
opposition to freedom and liberty and human rights isn't 
organic.
    It is typically the force of some other structure, whether 
it is military or government, and so by definition the places 
that democracy building is so urgently needed are the hardest 
places to do it and, as you all know better than anybody, it is 
sometimes the most dangerous places to do it.
    So what I sort of--I think our responsibility is to figure 
out what do we do to reduce the danger of this really 
important, and to your point, Ms. Jaafar, critical to the 
security interests of this country.
    This isn't just democracy building because it would be 
better to live in a world where everyone enjoys these freedoms, 
which of course it would be, but it is in our direct national 
security interests to develop democracies and freedom and 
liberty around the world. And so it is not an extra exercise.
    It is, I think, central to our responsibility to keep 
American citizens safe here and around the world. So I take it 
that, first, is, you know, we have to continue to press the 
Egyptian Government about the importance of responding to this 
case appropriately.
    I met with the Egyptian Ambassador yesterday. This was 
central to my conversation with him. I think this hearing does 
that but I think--you know, I take away that that is something 
we need to continue to do, be certain that we are continuing to 
fund and support democracy building around the world.
    Don't use this occasion to pull back from that. In some 
ways, it becomes even more urgent that we stay engaged in this 
work.
    Third, that we have to be sure that we--that the people who 
are doing this work sort of understand that it is not just an 
important exercise and good to do sort of like philanthropic 
work but it is, again, central to our security and just making 
sure our colleagues understand that as well as the American 
people.
    Fourth, I think to make sure that we identify and mitigate 
risks in every say that we can and be sure that that 
information is being communicated to NGOs in country-specific 
ways so that as they do this important work that we at least 
reduce in every way that we can the dangers.
    And I think the final thing that I would add to that list 
is, and this sort of builds on something Mr. LaHood just said, 
it is really for us to make the case that these are not 
individual criminal cases against individuals.
    While that is part of it, these are really cases against 
democracy and civil society and the American way of life and 
really if there were some way for us to really almost intervene 
in these cases as a country because the work of these NGOs is 
not the work of an individual person.
    Although they are the people doing it, it is the work of 
the United States and the work of, you know, intentional 
decisions by this Congress representing the people to invest in 
this work. And so I don't know the right way for us to do that 
but I think we have got to figure out a way that this becomes 
our cause, not just the cause of individual defendants in the 
criminal case.
    So that is, I think, my list of six things but I want to, 
in addition to that, are there other things that we should do 
or could begin to do as a Congress to advance the work that you 
and the organizations you represent are engaged in?
    Mr. Dunne. Let me just start very briefly.
    Mr. Cicilline. I am the last witness so I can just summary, 
as I can do, you know.
    Mr. Dunne. Look, I totally agree with the points you 
brought up and just to kind of expand a little bit on the last 
one, I would also say that we have to insist on the 
internationally guaranteed rights of civil society in Egypt and 
elsewhere to associate with organizations such as all of ours.
    Part of the intention of the new NGO law and the NGO case 
was to sever those ties so NGOs in Egypt could be more easily 
repressed and I think it is very important to continue speaking 
out on this.
    And any time there is a congressional delegation who is 
going to Egypt to meet with civil society organizations and I 
think it would be wonderful if congressional delegations could 
already--could try to meet with some of the people who have 
been imprisoned because of their political involvements such as 
Ahmed Maher, for example, and others.
    And the Egyptian Government will always refuse but it 
certainly makes a public case for the importance of this. One 
other thing is I would just like to draw your attention to is 
the ongoing expansion of anti-terrorism laws in Egypt, Saudi 
Arabia and other countries in the Middle East which broadly 
create definitions of terrorism that include all sorts of 
political activities.
    This is one of the reasons why the Al Jazeera journalists 
were convicted--for associating with the Muslim Brotherhood. 
That is considered terrorism now, and you see similar laws in 
other places and that is something that should be, I think, a 
talking point with a lot of these governments because it is 
part of this authoritarian push back that I was trying to 
describe earlier.
    Mr. LaHood. If I could, just a couple quick points I would 
make. You know, first is, as I said in my statement, finding 
domestic relief for us is something that would be helpful, 
obviously, and as I understand yesterday in the Senate a bill 
was actually introduced that referred directly to our case.
    Senate Bill 2649 was introduced by Senator Lindsey Graham 
and he had a few bipartisan co-sponsors and I understand that 
it was a bill to provide certain legal relief from politically 
motivated charges by the Government of Egypt and specifically 
about our case. And so that, as I understand is the specific 
relief we need to help us here in the United States.
    But the second point I would make is ultimately for us what 
we need is a pardon from President al-Sisi. That is the only 
thing that is going to lift this cloud that sort of hangs over 
our heads. And so to the extent that the administration and 
Congress can keep the advocacy of that up is helpful to us as 
well. Thank you.
    Mr. Cicilline. Thanks.
    Mr. Butler. Just a couple of quick points. I agree with 
everything Sam just said in terms of assistance to the 
organizations and the individuals who were convicted.
    Two points--one is that, you know, you mentioned the 
importance of protecting NGOs of communicating with NGOs and I 
think that is a point that was alluded to earlier but perhaps 
hasn't been expounded upon enough, which is that in this 
dispute between the U.S. Government and the Egyptian Government 
over the aid--the increased aid that was going to our NGOs we 
didn't know anything about that--you know, that dispute that 
was happening between, you know, the objections that the 
Egyptian Government was raising to the redirection of funding 
toward us and we could have had the opportunity to decide if, 
you know, is this something we want to do.
    You know, I think if we knew that now in another country we 
would be very careful about taking that assistance if we knew 
that the local government had objected to it.
    So I think communicating with the NGOs that is obviously an 
administration thing, not a Congress thing. But that is one 
point.
    Another point is in terms of further assistance is our 
grants is over so we no longer have any funds to support our 
Egyptian personnel or for legal costs if there should be 
additional legal costs. So that is something going forward.
    You know, we are on the line for paying for all that 
ourselves if there are additional legal costs. You know, the 
Egyptian defendants are appealing their cases. We can't appeal 
ours but they are appealing theirs. So that is another point.
    Ms. Jaafar. I agree with everything you said. I couldn't 
have summarized it better. I would just add that it is very 
important that we continue to support civil society in Egypt. 
They do feel abandoned.
    Yes, the environment is a lot more oppressive and 
challenging now, more than it has ever been, and yet they are 
still willing to do the work. They are still willing to take 
the risk, to build a better Egypt for their children, for their 
community, and I think we need to support that both, you know, 
in terms of assistance--financial assistance--but also vocally 
as well.
    Mr. Cicilline. Thank you. Thank you, Madam Chairman. I 
yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline. Thank you, Mr. 
Johnson, for sticking around for this panel. It says a lot 
about you and your interest, and thank you. You inspire us and 
we will work all we can do to seek that pardon.
    Thank you so very much for your wonderful stories, for 
sharing it, and for the trauma that this has brought upon your 
lives. Thank you for speaking out for freedom, democracy, the 
rule of law. You do good work. Thank you.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 12:14 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              



                   Material Submitted for the Record





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
